<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 

                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2015
_____________________________________________________________________



                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________

                   SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman
 RODNEY P. FRELINGHUYSEN, New Jersey      MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi               PETER J. VISCLOSKY, Indiana
 KEN CALVERT, California                  ED PASTOR, Arizona
 CHARLES J. FLEISCHMANN, Tennessee        CHAKA FATTAH, Pennsylvania
 TOM GRAVES, Georgia
 JEFF FORTENBERRY, Nebraska

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full
    Committee, and Mrs. Lowey, as Ranking Minority Member of the Full
    Committee, are authorized to sit as Members of all Subcommittees.
             Rob Blair, Angie Giancarlo, Loraine Heckenberg,
                      Ben Hammond, and Perry Yates,
                            Staff Assistants
                                ________

                                 PART 5
                                                                   Page
 U.S. Corps of Engineers..........................................    1
 Bureau of Reclamation............................................  103

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ----------

	                 U.S. GOVERNMENT PRINTING OFFICE

91-249 PDF                       WASHINGTON : 2014


                       COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                SAM FARR, California
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington    WILLIAM L. OWENS, New York
 DAVID P. JOYCE, Ohio
 DAVID G. VALADAO, California
 ANDY HARRIS, Maryland
 MARTHA ROBY, Alabama
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah
                     William E. Smith, Clerk and Staff Director

                                  (ii)


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2015

                              ----------

                                         Wednesday, March 26, 2014.

     DEPARTMENT OF THE ARMY--UNITED STATES ARMY CORPS OF ENGINEERS

                               WITNESSES

JO ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS, UNITED
    STATES ARMY
GENERAL THOMAS P. BOSTICK, CHIEF OF ENGINEERS, UNITED STATES ARMY CORPS
    OF ENGINEERS
    Mr. Simpson. The hearing will come to order. Good morning
to everyone and thanks for being here this morning. I would
like to dispense with a little bit of administrative business.
I would like to ask your unanimous consent to allow two of our
full committee members, Mr. Kingston and Mr. Bishop, to join us
on the dais when they arrive and to ask questions of the
witnesses once all subcommittee members have had an
opportunity. Without objection we will proceed in that order.
    Our hearing today is on the fiscal year 2015 budget request
for the Civil Works programs of the US Army Corps of Engineers.
    I would like to welcome our witnesses, Assistant Secretary
of the Army for Civil Works, Jo Ellen Darcy, and Chief of
Engineers, Lieutenant General Tom Bostick. It is good to see
both of you again, and I look forward to your testimony.
    The Corps of Engineers, through its Civil Works programs,
is charged with addressing water resource needs across the
nation. Corps ports and waterways handle more than 2.3 billion
tons of cargo directly serving 41 states. The Corps helps
states and local communities reduce their vulnerability to
flooding, saving lives and preventing average annual damages of
more than $37 billion over the past decade.
    The Civil Works program also promotes restoration of
degraded ecosystems, maintains water supply storage sufficient
to supply daily indoor needs of 96 million households, and
provides recreation opportunities for millions of Americans
nationwide. The Corps' hydropower facilities generate more than
77 billion kilowatt hours and approximately five billion
dollars in gross revenues annually.
    The Corps also has a significant role in responding to
natural disasters under the National Response Framework and has
personnel engaged in supporting various missions overseas.
    All of these activities are critical to the nation's safety
and economic wellbeing, but you would never know it by this
year's budget request.
    The fiscal year 2014 Civil Works budget for the Corps of
Engineers totaled nearly $5.5 billion; $741 million above the
budget request for that year. The request for fiscal year 2015
totals only $4.5 billion, a $934 million reduction from our
appropriation last year. Let me reiterate that: Even with the
deteriorating water resource infrastructures in this country,
the request is a full $934 million below last year. That is an
incredible seventeen percent reduction.
    It is apparent to me that Congress has one vision for the
Corps of Engineers and the administration has a starkly
different one. We hear frequently about the challenges facing
our shippers from filled in channels and locks and dams which
are falling apart. Every few years we have to address
significant flooding in one part of the country or another.
    These are challenges that the Corps should be addressing,
yet instead the administration asked for a twenty percent
reduction in the navigation program, including a more than ten
percent reduction in harbor maintenance trust fund activities,
and a sixteen percent reduction in flood control programs,
including a twenty-seven percent reduction in construction.
    I am also concerned that these competing visions are
contributing to a growing disconnect between Congress and the
executive branch over the Corps of Engineers. It is one thing
for the administration to outline a vision for the Corps that
differs from the Congressional vision, but once the Energy and
Water Appropriation bill is passed by Congress and signed by
the President, that is the law, and this subcommittee expects
the Corps to follow both the letter and intent of that law.
There have been a few notable instances in the past year or so
where adherence to the law has been questionable at best.
    Secretary Darcy, we need to figure out how to be on the
same page when it comes to the implementation of the Civil
Works program. I am not sure if it is a question of simple
misunderstanding coupled with lack of communication or whether
the administration doubts how serious this committee is about
its directions. Perhaps it is something else entirely. I look
forward to discussing these issues and specific examples with
you later in the hearing.
    Again, I would like to welcome our witnesses to the
subcommittee, and thank you for all that you do for this
country.
    Secretary Darcy, please ensure that the hearing record,
questions for the record, and any supporting information
requested by the subcommittee are delivered in final form to us
no later than four weeks from the time you receive them.
Members who have additional questions for the record will have
until close of business tomorrow to provide them to the
subcommittee's office.
    With that, I will turn to Ms. Kaptur, the ranking member,
for her opening comments.
    Ms. Kaptur. Thank you, Mr. Chairman, and we welcome our
guests today. We are so very happy that you are here, and we
appreciate your appearance and your service to our country.
    The last several years have been busy ones for Corps,
especially busy ones. Between Superstorm Sandy, Hurricane
Irene, all the droughts, tornadoes, and flooding in the
Mississippi and Missouri River Basins, you have had a great
deal to do. Let us hope that the year ahead of us is less full
of inclement surprises, though severe weather events seem to be
occurring more frequently.
    The Corps response to these events demonstrates the vital
role that the Corps plays in our nation's ability to prevent
and respond to natural disasters and maintain domestic
security. We are all very thankful to the Corps for all of your
efforts. However, these events draw attention to the
significant cost borne by government, the federal government,
and ultimately the taxpayer.
    In the initial response and long-term reconstruction
efforts we will never be able to entirely prevent damage from
catastrophic natural disasters. Yet there is every indication
that such events will become more frequent and more costly in
human life and physical damage. Therefore, we must begin to
address the long-term sustainability of our nation's
infrastructure.
    We cannot continue to underinvest in the short term and pay
several times over that in the long term recovering from
damages that could be mitigated with proper front-end
investment. With this budget request however, it seems that
historical patterns in budgeting for the Corps persist as the
request continues national disinvestment.
    The request cuts thirty-two percent from the construction
account and includes a seventeen percent reduction overall. I
have said this many times, in many venues: If you want to
create jobs in America, fully fund the Corps.
    In the constrained budget environment in which we currently
find ourselves, I have doubts as to whether Congress will again
be able to augment funding for your critical activities.
    Finally, and most importantly, as a Great Lakes lawmaker, I
would like to take this opportunity to address the Corps on its
efforts to prevent the spread of Asian Carp as well as the
attendant Great Lakes dredging needs. I continue to share the
grave concerns of my constituents and citizens across the Great
Lakes Basin, the entirety of it, about the growing threat of
the voracious Asian Carp to the entire ecosystem of our
precious, fragile lakes and river systems.
    The Corps recently concluded a study, as you well know, on
this threat that the Asian Carp poses to the Great Lakes, the
largest body of freshwater on the face of this earth, and on
strategies to address that threat. While the study was a step
forward, it seems only a small step, and one written on paper,
not embodied in protective infrastructure.
    Lake Erie alone, the lake in which my district actually
tracks from one end of the state to the other, is likely the
largest freshwater fishery in the United States, and it is
completely vulnerable. That threat is real; more real everyday.
And I am really disappointed that the Corps did not recommend
a, what I would call, strategic course of action in it's study,
what we do this year, what we do next year, what we do the
following year, because there is not much time.
    I expect that today you can explain to us how what you plan
to do to remediate the advance of the carp, short-term, medium-
term, long-term, what barriers have been placed and what is
being contemplated to prevent the infestation of our freshwater
lakes and the multibillion dollar fishery and marine industry
that current system allows.
    In addition, let me just say, in terms of the dredging
needs of the Great Lakes, of course, they are not being met.
Resources are woefully inadequate to state the obvious. And
Great Lakes ports are critical to our regional and national
economy.
    It was actually shocking to me recently when we were
talking in another subcommittee meeting about the potential gas
shipments out of this country to other places. That a very
important department of the government of the United States,
not your own, didn't look at the Great Lakes as the fourth
seacoast of this country, and they didn't even know that
shipping a container from there is the shortest distance to
northern Europe; people who are highly placed in this
government. I couldn't believe it.
    So, in any case, moving raw materials, agricultural
commodities, and industrial products to support heavy
manufacturing, construction, and energy capabilities all rest
in our region as well. We must keep these ports open for
business, and our Great Lakes system must be understood as a
system. Not just individual harbors assessed in a vacuum, but a
major fourth seacoast in this country, indeed the longest.
    I expect that today you will speak to how you are
responding to these pressing needs, and I look forward to your
testimony and thank the chairman and membership for this time.
    Mr. Simpson. Thank you, and again thank you all for being
here. I think it is important that we have this frank and open
discussion every year and talk about Congress's desires and the
Army Corps' challenges that they face, but it will be a frank
and open discussion.
    But I do want to thank all of you for the job the Corps
does across this country. It is very important, as we said in
our opening statements, and it has been very educational to me
as we have gone around and seen the Port of New York and Port
of New Jersey and others. You almost have to see how complex
all those things are to try to understand them, so it was very
educational to me. Thank you for hosting me up there.
    Ms. Darcy.
    Ms. Darcy. Thank you, Mr. Chairman and distinguished
members of the subcommittee. Thanks for the opportunity for me
to present the President's Budget for the Civil Works program
of the Army Corps of Engineers for fiscal year 2015.
    I would like to summarize my statement and ask unanimous
consent that my complete statement be included in the record.
    Mr. Simpson. Noted.
    Ms. Darcy. The budget for 2015 for the Civil Works program
provides a fiscally prudent and sound level of federal
investment in the nation's water resources. The President's
2015 budget includes $4,561,000,000 in gross discretionary
appropriations for the Army Civil Works program offset by a $28
million cancellation of unobligated carry-in funding in FY15.
    A total of 9 construction projects: 3 navigation, 4 flood-
risk management, and 2 aquatic ecosystem restoration projects,
28 studies, and 6 designs are funded to completion in this
budget. Completed construction projects will result in
immediate benefits to the nation and directly impact many local
communities as benefits are realized from the combined federal
and nonfederal investments.
    The Civil Works budget includes funding for one priority
construction new start, and 10 new studies starts in the
investigations account, including the water resources priority
study which will build upon and broaden the progress being made
by the Corps and its North Atlantic Coast Comprehensive Study
which was funded under the Sandy Supplemental.
    At a funding level of $915 million, the budget provides,
for the third consecutive year, the highest amount ever
proposed in a president's budget for work financed from the
Harbor Maintenance Trust Fund in order to maintain coastal
channels on related works. The budget funds capital investments
and the inland waterways based on the estimated revenues to the
Inland Waterways Trust Fund under current law. However, the
budget also assumes enactment of the legislative proposal
submitted to the Joint Select Committee on Deficit Reduction in
2011, which would reform the laws governing the Inland
Waterways Trust Fund.
    The Administration's proposal would generate an estimated
$1.1 billion in additional revenue over 10 years from the
commercial users of these inland waterways. This amount
reflects estimates of future capital investment for navigation
on these waterways over the next decade including an estimate
adopted by the Inland Waterways Users Board.
    The proposal is needed to ensure that the revenue paid by
commercial navigation users is sufficient to meet their share
of the costs of capital investments on the inland waterways,
which would enable a significant increase in funding for such
investments in the future.
    The budget also provides $398 million for dam and levee
safety activities, which includes $38 million to continue the
levee safety initiative which involves an assessment of the
conditions of federal levees.
    In continued support for the President's Veterans Job
Corps, the budget includes $4.5 million to continue the
Veteran's Curation Program which provides vocational
rehabilitation and innovative training for wounded and disabled
veterans while achieving historical preservation
responsibilities for archaeological collections that are
administered by the Corps.
    In summary, the FY15 budget for the Army Civil Works
program is a performance-based budget that supports an
appropriate level of federal funding for continued progress
with emphasis on those water resource investments that will
yield high economic, environmental, and safety returns for the
nation and its citizens.
    These investments will contribute to a stronger economy,
support waterborne transportation, reduce flood risks to
businesses and homes, restore important ecosystems, provide
low-cost renewable hydropower, and deliver other benefits to
the American people.
    Mr. Chairman and members of the subcommittee, I look
forward to hearing your questions. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Simpson. Thank you. General Bostick.
    General Bostick. Thank you, Chairman Simpson, Ranking
Member Kaptur, and members of the subcommittee. I am honored to
testify before the subcommittee today along with the Assistant
Secretary of the Army for Civil Works, the Honorable Jo-Ellen
Darcy, on the president's fiscal year 2015 budget for the Civil
Works program of the United States Army Corps of Engineers.
    I have been in command of the Corps for nearly two years,
and I am extraordinarily proud of the people and the missions
they accomplish each and every day. I want to take this
opportunity to thank Chairman Simpson and Representative Kaptur
for recognizing the great work that they do each and every day
and for visiting some of the troops that are on the front line,
both soldiers and civilians. They deeply appreciate those
visits and your recognition of the value that they add.
    I want to touch briefly on the US Army Corps of Engineers
and our campaign goals; there are four of them. The first is to
support the warfighter, and we continue working in more than
130 countries using our civil works, military missions, and
research and development expertise to support Army service
component and combat and commanders.
    We often find ourselves at the apex of defense, diplomacy,
and development with our work, and as such the Corps supports
the national security of the United States. Also within this
goal, we are focused on sustainability and energy, as well as
our support to our interagency partners such as the Department
of State, the Department of Veterans Affairs, the Department of
Energy, and many others.
    Second: Transform Civil Works. I have had the opportunity
to speak with many stakeholders, elected officials, about the
state of our nation's water resource infrastructure, and its
shortfalls.
    The four elements of our Civil Works transformation
strategy will help us address some of these issues and make us
more efficient and effective. Those elements are: Modernize the
project planning process, enhance the budget development
process through a systems-oriented approach and collaboration,
evaluate the current and required portfolio of water resource
projects through an infrastructure strategy to deliver
solutions to water resources challenges, and finally to improve
our methods of delivery; to produce and deliver both products
through water infrastructure and other water resources
solutions.
    The third part of our campaign goal is to reduce disaster
risk and to continue to respond to natural disasters under the
Natural Response Framework as well as the ongoing effort with
flood-risk management. The Sandy recovery work is progressing
on schedule. More than 200 projects from Florida to Maine and
into Ohio were inversely impacted by the storm.
    In 2013, the Corps successfully repaired many projects and
returned approximately 15 million cubic yards of sand to
affected beaches. In 2014, the Corps is on track to remediate
the remaining Sandy-impacted beaches, and we expect to place
approximately 50 million cubic yards of sand on these projects.
    The study team has been working with over 100 regional
partners on the comprehensive study. The framework developed in
this study looks at vulnerabilities across a large coastline
and identifies measures that can be used to mitigate future
risk. It will include a full range of possible risk reduction
strategies from structural to nonstructural and nature-based
features, and it will provide regional partners with methods
they can adjust to meet the needs within their specific
communities.
    And fourth in our campaign plan is to prepare for tomorrow.
This is about our people; ensuring that we have a pipeline of
science, technology, engineering, and mathematics
professionals, as well as a talent management plan for the
growth and development of our entire team.
    We are also focused on research and development efforts
that will help solve some of the nation's toughest challenges.
One great example is the Sandy sea level rise tool first
developed for use in our post-Sandy recovery efforts. The
interagency team that developed this tool won the President's
Green Government Award last fall. The calculator is now being
used to analyze other vulnerable areas across the nation.
    We are reviewing our internal operations and processes to
ensure that, in a time of fiscal uncertainty and challenge, the
Army Corps of Engineers is postured for future success. And
lastly, we want to help our wounded warriors and soldiers
transition into fulfilling civilian careers. I am proud that
last year we had 140 operation warfighter interns in the Corps
of Engineers, and we assisted 120 wounded warriors in obtaining
civilian jobs.
    Mr. Chairman, I ask you and the other members to refer to
my complete written testimony submitted to the committee for
the fiscal year 15 budget specifics. Thank you for this
opportunity, and I look forward to your questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Simpson. Thank you. And again, I want to say thank you
all for the work that you do for this country. It is vitally
important, and the Corps is one of the agencies that I think
most members of Congress are pretty proud of. We obviously have
some disagreements occasionally, and let us get to those right
away if we could.
    Madame Secretary, as I mentioned in my opening statement, I
believe there is a growing disconnect between the Committee's
direction and the Administration's implementation when it comes
to the Corps of Engineers.
    A prime example is the issue of the fiscal year 2014 new
starts. Congress was clear in its intent that no more than
three new environmental studies were to be initiated, yet the
Administration chose to select four studies for the fiscal year
2014 budget requested, combining two of them into the work plan
in order to claim that it was a total of only three, and then
at the exact same time split them apart again in the fiscal
year 2015 budget request.
    Those actions, to me, clearly violate the intent, if not
the letter, of what Congress intended. How do you justify that,
Madame Secretary?
    Ms. Darcy. Thank you for the question and the opportunity
to explain what we did.
    Mr. Simpson. Okay.
    Ms. Darcy. You are correct. In the 2014 President's budget
submission we had two studies, both of them on the Russian
River in California:
    Warm Springs and Coyote Dam. Since the submission of the
2014 budget and the submission of the work plan, we relooked at
those two studies and realized that they were both on the same
river and were in the reconnaissance phase, they were both
going to be covered by the same BiOp, and they were both going
to have the same local sponsor. We felt that combining them for
the purposes of a reconnaissance evaluation made sense.
    As you pointed out in the 2015 budget, we have them as
separate studies. The reason for that is once we get to the
feasibility study, we believe that the two projects have
different hydrologic patterns and needs, so they would have to
be evaluated in that instance in different studies.--What I
think we should have done, Mr. Chairman, quite honestly, is
told you before we submitted the 2014 work plan. We didn't. For
that I apologize. I agree with what you mentioned in your
opening statement about better communication early on, and this
is an example of what we could have done better.
    Mr. Simpson. That was going to be my next question, did you
consult with Congress on doing that and inform us of what you
were doing? I think that communication is vitally important;
that you allow us and our staff to know what you are proposing
when that happens so that there isn't this disconnect that goes
on. So, I appreciate that.
    Ms. Darcy. I also believe that we should communicate when
developing work plans. We have had to do this recently but
haven't had to do in the past; we need to more clearly
understand your intent. And that requires communication with
you and your staff.
    Mr. Simpson. The issue of work plans brings up a second
concern I have with the lack of information to support the
fiscal year 2014 work plan that has been submitted to date.
Congress was clear about wanting more transparency and
allocation of the additional funding provided, yet the
Administration has provided basically the same information that
it did in fiscal year 2012 which this Committee has been
telling you for two years was insufficient.
    Did the Corps and Administration actually develop rating
systems for use in allocating additional funding as directed?
    Ms. Darcy. Yes, we did, sir. I believe that the rating
system is on its way to you today.
    Mr. Simpson. Any idea when that will be here?
    Ms. Darcy. As soon as the----
    Mr. Simpson. Like 10:30?
    Ms. Darcy. You will get it today.
    Mr. Simpson. Okay, I appreciate that.
    Ms. Darcy. Before dinner.
    Mr. Simpson. I appreciate that very much. Let us talk about
the vision of the Corps. I mentioned in my opening statement
that it seems to be apparent that Congress and the
Administration have very different visions for the Corps.
    This is your first opportunity before this subcommittee
with me as the chairman, and I would like to hear from you what
your vision is for the Corps of Engineers and how this budget
request fulfills that vision. Kind of a general question, but--
--
    Ms. Darcy. My vision for the Corps has gotten more broad
each year that I am in this job, and that is because I see the
abilities that this agency brings to water resources management
and the American people. You have all made great accolades
about the work they do, and you have seen it and can see it
every day.
    I don't think there is a member of Congress that doesn't
have a Corps project or some Corps-related presence in their
district. And I think that my vision for the Corps is to
increase the face of the Corps of Engineers wherever we are, by
continuing to provide the services that are expected. Within
constrained budgets we have to be able to see what we can
actually accomplish, but my vision is that we would not only
continue to provide what we have in the past, but also in ways
to increase our presence as far as our ability to deliver what
is expected, such as the flood control mission, one of our main
missions, as well as providing the commerce that this maritime
nation depends on.
    My vision is not only to continue, but to increase and
improve our delivery. And our methods of delivery are something
that, as the Chief mentioned, we are working on and looking
forward to in order to improve that delivery. The Chief has a
different vision.
    Mr. Simpson. Would you like to talk to that Mr. Bostick?
    General Bostick. I would like to address that, Mr.
Chairman, and thanks for the question.
    The history of the United States is really the history of
the Corps of Engineers. We have been with this country and
worked along major challenges and major successes throughout
our history. I think the Corps is known for solving the
nation's toughest challenges. Whether it was in the early 1800s
when we would help settlers move up and down the Ohio and the
Mississippi and our work started on the rivers, whether it was
NASA or the Panama Canal or many of the things--the great dams
and levees that are helping this country, I think we have been
there to help solve the nation's toughest challenges.
    I think in the future that is what we would like to
continue to do, and those challenges could come in a number of
different forms. From a headquarters standpoint, we have looked
at it in the context of these four goals that I talked about:
Support the warfighter, transform Civil Works, reduce disaster
risk, and prepare for tomorrow.
    We are in 130 plus countries. We are supporting combatant
commanders. We are supporting the nation. We are using Civil
Works expertise. We are world renowned in our water resources
management. Some of the very best minds, scientists, and
researchers from our Engineering Research and Development
Center and our other labs are highly sought after from around
the world.
    I don't want to point out Steve Stockton here, but I will.
When the floods were recently occurring in England, we got a
call on a Friday night to send one of our experts to No. 10
Downing Street to talk with the UK about what they could do in
that current situation. Steve flew in Saturday, had the meeting
all day Sunday, and was back on Monday. It is that sort of
technical expertise that we have in the Corps, and we must
continue to reach out and use it throughout the world.
    Transforming Civil Works, I think that is really the future
of the Corps and how we are able to transform and modernize our
planning process, our budgeting process, how we deliver
products and services in a better way, how we look at the
infrastructure of the nation and assess it, determine what do
we retain, what do we repurpose, where do we look for
alternative financing. That part of our four campaign goals is
critical to the future of the country in how well we are able
to execute.
    Reducing disaster risk: we are very well-prepared, very
well-trained to respond, but what we would like to do is make
the country more resilient in how it lives on the coastlines,
how it lives in an environment that is adapting to climate
change or must adapt to climate change. I think the
comprehensive study that the North Atlantic Division is doing
in the wake of Hurricane Sandy with the Congress-provided
supplemental funds, will help the nation.
    And then finally, in preparing for tomorrow, we see
ourselves as a critical teammate in the challenges that the
nation is facing with science, technology, engineering, and
math shortages, and the number of youngsters that are either
choosing not to pursue those areas or where academics have
inadvertently closed the door on those areas. So, we are trying
to work as best we can as the nation's federal engineer to try
to help out as best we can in critical areas so that we have
the talent for the future.
    Mr. Simpson. Well, thank you. Those are admirable goals and
history also, and I agree with those.
    We will get into a discussion as we go through this hearing
process how a seventeen percent reduction in the budget request
is going to meet those goals and challenges that we face, and
we know that we all have great challenges in the infrastructure
across this country. But I know the line; you support the
President's budget request. But that is something that we need
to discuss; how with this almost billion dollar reduction, how
we are going to meet those challenges with that kind of
reduction in the budget proposal. So, Ms. Kaptur.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman. I am going
to be somewhat regional in my first set of questions because if
you look at this committee, it represents talented people, but,
though Mr. Visclosky used to serve here, we usually don't have
people from the Great Lakes region that rise to the top. So, I
feel a particular responsibility today and that is in view of
the budget shortfalls that Chairman Simpson has referenced.
    I am going to ask you to take a look at your budget and
think about a reset; a reset for the Great Lakes as employment
shortages and constraints limit your ability to do certain
things.
    Let me say for the record, if I look at the employment in
the Corps it is coastal. You see which states most people work
in to carry out the duties that you are sworn to carry out. The
physical expenditures are there along with the Mississippi
River Corridor. What I saw in California with the protection of
the Delta Smelt, and along the west coast with salmon was quite
instructive. But I represent a fishery that's value just in one
lake at over $7 billion, and it is completely threatened and
there is no protection of any significance.
    I see the regional disparity and it is deeply troubling to
me. Further evidence. We have something called a Great Lakes
Commission. You are not responsible for it. It is based in Ann
Arbor, Michigan in the Watershed of the Great Lakes. There is
something called the Great Lakes Restoration Initiative that
the Environmental Protection Agency administers. They are based
in Chicago. That is in the Great Lakes Watershed.
    There are Great Lakes Science Centers that operate in
places like Cleveland and Chicago, they are in the Great Lakes
Watershed. But the core for its administering office for the
Great Lakes places it in Cincinnati. That is not in the Great
Lakes Watershed. Yes, you have offices in Buffalo, and on
occasion somebody shows up in Detroit, but all I am saying to
you is the Great Lakes is a System. It is the largest body of
fresh water on the face of the earth.
    Somebody in our government ought to be thinking about that
in the same way as we thought about electrifying and watering
the west so seven states could populate and settle. We are now
in a different era. I can tell you now after 32 years'
experience in the Congress of the United States there is never
anything that I have worked on with the Corps where, if I have
not been persistent, we finally achieved it. But we have to
have a reset on the way you treat the Lakes.
    There has to be a way that we work together in a systematic
way as happens in other parts of the country. Whether it is
navigation on the Mississippi, whether it is water provision in
the west, looking at the manner in which you move water. It is
just unbelievable the structures that are there.
    The Great Lakes has been sort of dealt with port to port,
and, you know, a little bit of infrastructure here, a little
bit of infrastructure there. We need a better administrative
focus at the core, all right?
    Today in the Cleveland Plain Dealer which is located in the
Watershed of the Great Lakes there is not such a nice editorial
about the Corps. It relates to dumping tainted Cuyahoga River
dredge in Lake Erie. Unfortunately there is a disagreement
between the head of the Cuyahoga Cleveland Port Authority, Will
Friedman, who was told by Lieutenant Beaudoin of the Army Corps
in Buffalo that if, at least this is how Mr. Friedman
interpreted what the Corps said, if the Corps cannot dump
tainted dredge in Lake Erie they will not dredge. Which, of
course, shuts down business for the greater Cleveland area that
is seaborne.
    Senator Portman, in the other chamber, is quoted in the
paper as saying, ``It is unconscionable that the Corps is
threatening to defer dredging should it not get its way.
Dredging should begin in May.''
    I'm only saying here again, we need a better administrative
architecture for the Corps dealing with the Great Lakes. One
subset of this relates to the threat of invasive species. The
Corps's study which Congress pushed you into, you did not
initiate it, possibly because the Corps's historic nature is
infrastructure, not environment. I mean, lately you have gotten
more into environmental issues, but that is not your steak.
That is sort of your mashed potatoes. It is not the main
protein source. But in places like we live they are joined at
the hip.
    So you identified some alternatives for preventing the
spread of aquatic nuisance species from one basin to the other.
My question is, Secretary Darcy, for this year right now 2014
as we begin the fishing season, what does the administration
envision as the next steps on preventing the spread of the
carp?
    There is $500,000 in your 2015 budget request for more
study. There may be some carryover of funds, perhaps as much as
$1.5 million. How in heavens' name are we going to give any
confidence to people that live in the Great Lakes Basin that
their entire fishery is not about to go south? And I mean
extinct.
    Ms. Darcy. Congresswoman Kaptur, the funding that you
mentioned in the 2014 and 2015 budget are going to be used to
evaluate. As you are well aware, the GLMRIS Study was completed
in January. Since then, we have been hearing from the public
around the region. We were in seven different cities along the
lakes. I was not at the hearing, you were, but I was in Chicago
and Ann Arbor.
    The purpose of those hearings was to hear from the public
about what their reaction was and to hear their ideas about the
eight alternatives that were presented in that GLMRIS Report.
    Those alternatives range from doing what we are doing now
to building hydrologic separation and run the gamut in between.
    The public comment period ends on the 31st of March. We are
going to continue to assess what those comments have brought up
and hoping that working with other people within the region,
including the Great Lakes Commission, that there might be a
consensus of what the next steps should be. Whether that be a
short-term implementation of one of those alternatives or
whether we should be looking more in depth at some of the
alternatives that were presented.
    I know that the Great Lakes Commission has passed a
resolution asking about looking at the Brandon Road. Currently
there is a lock and dam there. Should there be additional
barriers put there? Should there be experimental locks put
there? That is not part of our alternatives, but that has come
out as part of the public comment period. We are looking at
evaluating the other recommendations that are coming out of
that as well.
    Ms. Kaptur. It is my understanding that there are 18
waterways through which fish can reach the Great Lakes. Is that
true?
    Ms. Darcy. That is what we identified in the study.
    Ms. Kaptur. Of those 18 are they are sealed off now? Are
barriers installed? We need an infrastructure understanding of
where we stand.
    Ms. Darcy. The Corps of Engineers operates, as you know,
the fish barriers in the Chicago Sanitary Ship Canal. Those are
the only Corps of Engineer's barriers that we currently
operate. Am I right, General Peabody?
    General Peabody. Yes, ma'am. There is one other that is in
the vicinity of northeastern Indiana close to the intersection
between the headwaters of the Maumee River.
    Ms. Kaptur. Maumee is the largest spawning river into the
largest fishery.
    General Peabody. Yes, ma'am. I am very well aware of that,
but that prevents any fish from migrating in the occasional
periods where there is intermittent seasonal connections with
heavy rains between those two headwaters. Asian carp in Indiana
are, I forget the exact distance, but it is quite a long way
and I think at least two dam structures from that marsh area.
    Ms. Kaptur. I would appreciate, General, for the record,
and then we will move onto others, I appreciate my colleagues
patience here, but this is, believe me, an imminent threat.
    What can you give us in the way of mapping and
understandable material we can provide to the general public
including our entire tourism industry, all of our marinas, all
of our mares, everyone who is so concerned in our entire basin
where we stand in preventing the movement of these creatures
into our system?
    If 17 of the waterways are not blocked we need to know
that. What material? Who is in charge? Who can give us this
material? We do not possess it.
    Ms. Darcy. Part of the GLMRIS Report identifies those
waterways and identifies the species that have been identified
that pose an imminent threat both coming into the Lakes and
also from the Lakes into the Mississippi because we were tasked
at looking at the transfer both ways.
    That summary can give some of that information, but as far
as an overall blueprint for the way forward I think that needs
to be done with the federal family including the Fish and
Wildlife Service who are the experts in fish and wildlife
migration.
    Ms. Kaptur. How do we get that done, Secretary Darcy?
    Ms. Darcy. Well, I think working through the Asian carp
recovery task force. We have representation on that from the
federal family as well as the states. All the states are
involved in that. That is one way I think we can look.
    Ms. Kaptur. Do you chair that?
    Ms. Darcy. Pardon me?
    Ms. Kaptur. Do you chair that?
    Ms. Darcy. No. The Council on Environmental Quality chairs
that.
    Ms. Kaptur. Okay. I will save more questions for the next
round. Thank you.
    Mr. Simpson. I thank the gentlelady from Ohio and the
passion that she brings to this, but I have to tell you being
from Idaho, mashed potatoes and steaks are joined.
    Ms. Kaptur. I saw your reaction from the potato comment on
that.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. I want to thank
everyone on the Committee. Last year you all testified before
me and I appreciate that. Secretary Darcy, I appreciate that
you visited with me a couple of weeks ago in my office. Thank
you so much. I want to thank the Corps. for everything you do
in America.
    I would like to talk a little bit about the Chickamauga
Lock. As many on the Committee know there are basically two
Chickamauga Locks. There is the old Chickamauga Lock which is
basically a new deal era lock which is in somewhat disrepair.
It has about 300 monitoring devices on it. It is functional.
    Then there is the new Chickamauga Lock that has been
started and stopped. It is my understanding it is kind of
dormant right now, but it is going to be our Chickamauga Lock
of the future.
    I am going to ask these questions and please, you all
decide whom you would like to answer this. Can either of you
clarify the current condition of the older Chickamauga Lock as
it stands today? Is it structurally sound? What is the risk of
the Lock either falling down or being shut down within the next
five years? Please.
    General Bostick. Congressman, I am not sure we can predict
what might happen in the future, but we are closely monitoring
it as you had mentioned. We have the ability to monitor the
movement. We are very concerned that the situation is getting
worse there, but we are monitoring it, and we believe that if
things were to start happening, that we needed to take some
actions, we could take those. But it is really not possible to
say what might happen in the next five years.
    Mr. Fleischmann. The inland waterways capital development
plan as part of the IMTS capital project's business model of
2010 provides a broad template for the Army Corps of Engineers
construction strategy going forward, although not binding. The
Corps has followed the recommendations of the Capital
Development Plan when prioritizing construction projects.
    My first question is, is the Corps using the capital
development plan to determine criteria for additional
construction funding as a result of the 2014 omnibus? What
additional criteria, if any, are being used?
    Ms. Darcy. I believe we are using that plan in the
development of the work plan. What is contained in that
document you referred to is one of several criteria we use in
making the decisions about what gets funded out of the Inland
Waterway Trust Fund.
    Mr. Fleischmann. As a follow-up, does the Corps intend to
follow the capital development plan for fiscal 2015 and beyond?
    Ms. Darcy. I believe so at this time. That is my
understanding, but I will clarify if that is not the case,
Congressman.
    Mr. Fleischmann. Okay. Can you possibly give me an idea of
what your next five projects are based on their priority?
    Ms. Darcy. I believe, the priority currently in that plan
is Olmsted which we are currently funding. Monongahela Locks, I
think it is two, three, and four, that we are currently funding
in the 2015 budget.
    I think next on that list is Kentucky.
    General Bostick. Kentucky. That's correct.
    Ms. Darcy. Then Chick Lock would be fourth.
    Mr. Fleischmann. So you all in your priority plan would
have Kentucky over Chick?
    Ms. Darcy. At this time.
    Mr. Fleischmann. At this time, okay. Let me ask you all a
question. The fiscal 2014 omnibus reformed the cost share for
the Olmsted Lock and Dam Project for fiscal 2014. I thought
that was a major accomplishment that we got done here in
Congress. Freeing up approximately $80 million for inland
waterways construction.
    My understanding is that the deadline to notify the
Committee of how the funding is spent is rapidly approaching.
When can the Committee expect to hear the Corps's plan for how
to spend the additional funding?
    Mr. Mazzanti. It was submitted with the work plans,
Congressman: the funds that were going to be used out of the
2014 consolidated appropriations act. They are on the
Monongahela Lock and Dam, I'm blank on the name of the
contract. Charleroi.
    Mr. Fleischmann. Okay. But we have got these funds
appropriated exclusive of Olmstead. I guess a more pointed
question is, it is my understanding we need about $6.9 million
to begin construction on Chick Lock. Is there any plan to put
any funds on Chick Lock this year for fiscal 2014?
    Ms. Darcy. No, sir.
    Mr. Fleischmann. Is that something that you might possibly
reconsider and look at or is that pretty well set?
    Ms. Darcy. Not in 2014, sir.
    Mr. Fleischmann. Mr. Chairman, I have some more questions,
but I will yield back at this time.
    Mr. Simpson. Thank you. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. Good morning to the
panel. For the past two years this subcommittee has realized
that we have had a problem with the 902 limitations. Water
bills differing in House and the Senate, and not having water
bills, and the pent up frustration that there are many projects
that are desired as new starts.
    So for the last two years, at least this energy and water
bills, carried a one year waiver on the 902 limitations. This
year H.R. 3547, the consolidation appropriation act of 2014
extended the waiver for two years. So that meant that both the
Senate and the House agreed that there was a problem with the
902 limits, and we needed to start addressing them.
    The intent was to give the Corps of Engineers its own
flexibility, and also to develop a work plan that would
hopefully complete those projects that had 902 limitations so
that we could finish the project, and hopefully then free up,
and hopefully allow the Corps of Engineers to look at possible
new starts.
    I think even in this 2014 bill we put in some new starts
for the administration to look at which I heard this morning.
So we went through the exercise or you guys have gone through
the exercise, so my first question is how did you apply the 902
waivers in those projects that had the limitations?
    Ms. Darcy. Sir, we funded those projects that had 902
limitations that could be completed within the two year waiver
that was given in the appropriations bills.
    Mr. Pastor. So that was the only consideration?
    Ms. Darcy. We funded the ones that could be completed
within the window of the waiver, sir.
    Mr. Pastor. Did OMB and the administration have a different
interpretation to your work plan and how you developed a work
plan? Was it projects you wanted to complete?
    Ms. Darcy. No, this is the Administration's position on
those projects, sir.
    Mr. Pastor. We in Arizona are trying to complete a project,
Tres Rios, and it was my understanding, and I do not know if we
share my understanding that the Corps was hoping that that
would be one of the projects in the work plan that would be
considered by OMB?
    Ms. Darcy. It was considered, sir, because it does have
that 902 issue. We evaluated all of the projects that had a 902
issue. But as I say, funded only those that we know could be
complete within the waiver window, and for Tres Rios, only an
element of that could be completed.
    Mr. Pastor. It is my belief that 2014 we are also probably
going to have a bill funding again. Is there a possibility that
you might look at Tres Rios or other projects where it has a
902 limitation in 2015 work plan to be submitted to OMB?
    Ms. Darcy. If there is a 2015 work plan, sir, we will
consider those projects again.
    Mr. Pastor. In the flexibility that we try to provide to
the Corps, have you been able to exercise that flexibility or
has the administration been determining how much flexibility
they want you to have?
    Ms. Darcy. Within the development of the Administration's
work plan the flexibility that you provided regarding the 902
enabled us to fund seven projects----
    General Bostick. Seven projects, correct.
    Ms. Darcy [continuing]. To completion in the 2014 work
plan.
    Mr. Pastor. Okay, Mr. Chairman. I will yield back. Thank
you.
    Mr. Simpson. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I will follow-up a
little bit on that line of questioning. I thank the gentleman
for his questions, and thank you all for being here.
    As you are all well aware, the Savannah Harbor Expansion
Project was authorized in 1999. It is very, very unique. That
was last century that it was authorized. It has required a six-
way agreement between four federal agencies and two states
prior to the start of the project. Even with this high level of
mandated coordination that was required it has enjoyed long-
term bipartisan support on the local, the state, and the
federal level.
    The Administration has not been shy in supporting the
project with words. The President included SHEP as a 2012 We
Can't Wait project. The Vice President visited the port, and
said we will complete this project, in his words, ``Come hell
or high water.'' However, in this case words have not
translated into actions, and it is hard for my state to
understand why.
    After jumping through so many hoops the delegation was in
the home stretch. We were almost there. Congress was explicit
in the 2014 omnibus. We included a two year Section 902 waiver
as discussed in previous questions. Continuing the practice we
have engaged in since 2009, we shifted research funds to the
construction side. We included explicit report language
instructing the Corps to treat SHEP as under construction in
the FY 2015 budget, and yet here we are. At the first
significant opportunity for action OMB tells us that they have
had a change of heart.
    OMB tells us that they have to follow long-standing
practices. But by my reasoning law trumps practice, and the law
is unambiguous here. All of the work we have done, and by
``we'' I mean a lot of folks, a lot of individuals, including
yourself get us to this one point where all we have to do is a
have a signature of a PPA document, a Project Partnership
Agreement.
    It seems clear to me that you have no reason not to sign
the PPA. So I guess my question goes to this. After you have
been specifically told to get this project underway--Congress
has not left any question about this--the OMB, maybe they have
made a decision not to fund it, and it is somehow impacting
your decision. Can you give us an explanation as to why you
will not sign the PPA as requested? The funding that we have so
unambiguously put forward as far as it goes with the Savannah
Harbor Expansion Project.
    Ms. Darcy. Congressman Graves, as you say, the budget
reflects that the Administration believes that the entire scope
of the project needs to be authorized before we can appropriate
money for construction. That authorization, as you know, is
included in the Water Resources Development Act for the full
scope of the project. We would need to have that authorized
before we could fund it for construction.
    Mr. Graves. Some would say the Administration is playing
politics with this project. Congress has been very clear. The
law is very clear. The President signed it into law. I would
say that the State of Georgia is really wondering what is going
on here. You are saying now that the full project has to be
funded. Do you not believe you have the legal capacity as
required by law to sign the PPA?
    Ms. Darcy. Sir, we believe that the full scope of the
project needs to be authorized before we could do that.
    Mr. Graves. Have you been advised by your legal counsel not
to sign the PPA?
    Ms. Darcy. No, sir. I have not sought legal counsel on this
issue.
    Mr. Graves. So there is nothing restricting you from
signing the PPA as Congress has instructed you to do, and the
President signed into law?
    Ms. Darcy. I would just need to say, again, that until the
full scope of the new project is authorized by the Congress we,
at this point, would not be funding it for construction.
    Mr. Graves. What portion of the project is outside the
scope that you are referencing and has not been----
    Ms. Darcy. You referenced the authorization that needed the
concurrence of all the other four agencies as well of the
states. A large portion of that is a mitigation. I think it is
over $300 million.
    Mr. Graves. And are you aware that the State of Georgia has
set aside with the support of the Governor as well as the
General Assembly, over $200 million towards this project and
your lack of signature on the PPA prohibits the State of
Georgia from moving forward on this?
    Ms. Darcy. Yes, I'm aware of that.
    Mr. Graves. And my understanding is the Corps is always
looking for partnerships on the local level, the State level--
the State of Georgia has been very committed to this. Tell us,
what would it take--what does Congress need to do besides
passing a law, having it signed by the President, in order to
move forward and sign the PPA?
    Ms. Darcy. We would need to have the additional scope of it
authorized.
    Mr. Kingston. Will the gentleman yield?
    Mr. Graves. Absolutely.
    Mr. Kingston. Ms. Secretary Darcy, I'm sorry to jump in but
as you know we have a little bit of passion about this issue.
The items that are beyond the scope--what are those that would
fall beyond Commerce or Interior or the Corps of Engineers or
EPA? What items specifically were beyond the scope of those
agencies? Because if those are the agencies that required it,
then it would be within the scope of the authorization, so
there must be something outside those four agencies. And I'm
wondering if you could tell us what those would be?
    Ms. Darcy. Congressman--the four agencies agreed on the
expanded scope of the project and needed to do that in order
for it to get authorized, so it is those agencies with which we
consulted and reached consensus on the increased mitigation.
    Mr. Kingston. But they were in the scope of those four
agencies and so therefore they would have been in the scope of
the authorization.
    Ms. Darcy. Right, but the authorization has to be enacted.
    Mr. Kingston. The 1999 authorization did have a sign off on
those four agencies, so anything that those four agencies
required would automatically be authorized.
    Ms. Darcy. That is not the way we view the authorization
for the----
    Mr. Kingston. But you didn't get a legal opinion? I just
heard you say, correct?
    Ms. Darcy. I did not seek a legal opinion on this issue,
however it is not viewed as a legal issue, it is an
authorization and a fiscal issue.
    Mr. Kingston. Well, I will have some questions on this
during my time, I apologize.
    Mr. Graves. Yes, and I am just reclaiming my time Mr.
Chairman. I must say how frustrating this is to hear how the
scope of the project has changed and yet since 1999, the State
of Georgia as well as our entire delegation--this has
bipartisan support, I know, Ranking Member Bishop has joined us
as well. We have done everything we can do to make sure this
project moves forward and it is amazing how scope all of a
sudden changes and no one is made aware of that. I would be
curious as the hearings go on Mr. Chairman, if other project
scopes change through time. I would be interested to know that.
Thank you.
    Mr. Simpson. Thank you gentlemen. We are glad to welcome
the chairman of the full Appropriations Committee, the
gentleman from Kentucky, Mr. Rogers, and I will yield to him
for any opening comments that he might have or any questions he
might have.
    Mr. Rogers. Thank you Mr. Chairman and congratulations on
taking that seat. We think you are going to be a great Chairman
of this Subcommittee. Ms. Darcy, welcome to the Committee and
the rest of your staff. We are rolling right along through
these hearings in the Committee, with all twelve subcommittees
holding hearings. We have had 40 or 50 hearings so far, I
believe. Most all of the department heads, Cabinet Secretaries,
have been before us already. We are getting an awfully early
start this year because, thanks to the work of the Ryan-Murray
Budget Agreement, we have got a number to mark to, both House
and Senate, that is consistent, which will give us the chance
to try to pass all of these bills singly, as we are supposed
to. And that is my goal and that is what we will try to stick
to. I want to thank the Corps for their very good work as of
yesterday in resolving a problem with Lake Cumberland and the
Wolf Creek Dam that backs it up for a hundred miles--the
largest manufactured body of water east of the Mississippi.
Seven years ago, you had to lower the level of that lake by 40
feet to accommodate the need to repair the dam, which was in
imminent danger of collapse, which would have wiped out
Nashville and probably Paducah and Memphis and everything
downstream. It is that big a body of water. But in the
meantime, 14 houseboat manufacturers closed their doors. The 11
marinas on the lake, most of them had to move at great expense,
to deeper water. Businesses failed. It has been a terrible drag
on the economy of that whole region of southern Kentucky, and
all along, and so far, this Committee's given the Corps around
$560 million to repair that dam. Well just recently, six months
ago, the Corps says, we got it fixed, finally. Seven years, and
I take heart that that is true. We were getting ready to raise
the level of the lake to its regular pool for this summer's
tourist season. Everyone was all excited and a twitter at the
possibilities of getting our tourists back by the hundreds of
thousands, even millions, and then the U.S. Fish and Wildlife
Service says, wait a minute, we found a one and a half inch
minnow in the headwaters of one of these tributaries to the
lake and we are calling it the Duskytail Darter. They said--the
Corps says we cannot fill the lake up until we deal with this
endangered species. Well I waded creeks all over Eastern
Kentucky. I have been among those little darters and minnows
all my life. They are not endangered. Nevertheless, the law
required that the U.S. Fish and Wildlife go through a long
laborious biological study and they finished that day before
yesterday, and ahead of schedule. And then immediately, thank
goodness, the Corps says, okay, we are going to move ahead. So
they are going to take some of those darters and those minnow
and put them in the fish hatchery for safe keeping and
development and replanting, relocating when the level of the
lake is raised 40 feet. So thank goodness that we are going to
now be able to get those houseboats back on that lake by the
tens of thousands and get the tourism business in that part of
Kentucky going again. So I want to thank the Corps for taking
appropriate and quick action. That is not always typical of the
Corps, but it was certainly in this case and I want to thank
you for that. Now, just yesterday, we received word that the
Corps and the EPA are working together on a new regulation for
``the waters of the United States.'' In particular, the new
rule would greatly expand the miles of waterways that you would
have jurisdiction over, including thousands of miles of stream
that are considered seasonal or rain dependent, meaning, a dry
bed. Now as I understand the Constitution and the court rulings
so far, what we are talking about is whether or not you have
got jurisdiction over navigable streams, right? That is the
question. Navigable streams. It does not say part-time streams;
it does not say dry bed streams; it does not say rain dependent
streams. It says navigable. What does that mean? It means you
have to navigate it in some type of vessel. Now I will buy
tickets and give them away to see you go out there in the
middle of the desert in a dry bed and navigate that dry bed. I
will give away a prize to see that. And yet, that is what you
are talking about, and as such you are saying that you would
have authority over streams on private property even when they
are not streams. The economic impact of that kind of a power
grab would be absolutely profound. So what process under this
proposed set of rules would a local community need to go
through if they intended to build on private land that had a
seasonable stream that you considered a waterway under this new
rule? How would a community go about getting out from under
that kind of a rule?
    Ms. Darcy. Sir, the rule that you are referring to, we
proposed yesterday to the Federal Register for a 90----
    Mr. Rogers. Would you pull the microphone closer?
    Ms. Darcy. Sure.
    Mr. Rogers. I can't hear.
    Ms. Darcy. We proposed this rule yesterday, put it in the
Federal Register for a 90 day public comment period. Part of
the reason for doing that is to get responses from the public
and others who would be impacted by this rule, as to how it
could actually be implemented. In your specific question about
a community needing to build where there might be ephemeral or
intermittent streams, the Corps of Engineers would have to make
a determination as to whether there was indeed an intermittent
or ephemeral stream there and whether or not it needed to be
permitted, if there was going to be dredge or fill material put
in that stream.
    Mr. Rogers. Now what role would the EPA have under that
proposed rule?
    Ms. Darcy. The Corps of Engineers would make the
jurisdictional determination for that water body.
    Mr. Rogers. Well, in the past we have seen the Corps cave
under the threat of law suit by the EPA time and time again, so
I am not too confident of the backbone that the Corps would
have in this rule, like all of the others where it stands aside
and lets EPA really make the decisions. Now, suppose we needed
to build a highway across one of these dry beds. What would
that entail under the rule?
    Ms. Darcy. There would need to be a determination as to
what the applicability was of the 404 Regulatory Program on
that specific water body.
    Mr. Rogers. I didn't understand that.
    Ms. Darcy. If someone wanted to build a highway across one
of these intermittent streams----
    Mr. Rogers. Yes.
    Ms. Darcy. We would need to make a determination about what
the impact would be on that stream by the activity of the
Transportation Department or whomever was going to build the
road.
    Mr. Rogers. Well, assumedly if you have got this rule in
place, you are going to be the one that decides whether or not
we can build a road across that drybed, or not. Right?
    Ms. Darcy. If it involves a 404 permit, yes sir.
    Mr. Rogers. And every county, city, state in the country,
in order to build a street or extend a runway of an airport or
build a road would have to travel 3000 miles to get here to
plead with you to let them please build that road across that
drybed. Is that right or wrong?
    Ms. Darcy. The Corps District Commander would be the one
who would have to make that decision.
    Mr. Rogers. Yes, well I would assume they would get kicked
up the ladder eventually to you. You talk about a bureaucratic
mess and a bureaucratic bungle, that rule would be absolutely
incredible. Have you figured out what it will cost to map these
so-called seasonal streams and wetlands and determine who owns
what portion of those streams?
    Ms. Darcy. I don't have a cost estimate for that
Congressman.
    Mr. Rogers. I am sorry, I didn't hear you.
    Ms. Darcy. I don't have a cost estimate for that particular
instance.
    Mr. Rogers. You don't have any idea what it would cost?
    Ms. Darcy. Not at this time.
    Mr. Rogers. Well, has that been a consideration in
proposing such a rule--the cost of it?
    Ms. Darcy. There have been some cost estimates done by the
Environmental Protection Agency on the rule, but I am not sure
if it was specific to your example.
    Mr. Rogers. Well this is an outstanding change. Would you
not agree? This is a dramatic change in current law. And I
would have thought if you are going to be administering that
law and setting it up and getting the details lined up for maps
and costs and the like, that you would have already said, wait
a minute. I don't know what this is going to cost and I don't
have the budget for that. Why have you not discussed that or
thought about that?
    Ms. Darcy. There have been general discussions on the cost
overall but as I say in your example, I don't have a cost for
that specific instance.
    Mr. Rogers. Well, you better come up with it pretty quick
because this Committee has to work on facts. And there will be
not a penny for that program unless we know in advance the cost
of putting it in place and determine who owns what portion of
those streams and a lot more details. I am absolutely amazed
that this big a change would be proposed with hardly any
consideration apparently on the Corps' part on all these
things. Now in my district I know, we have got thousands of
little creeks and streams and some of them only fill up when it
rains, some of them never, some of them running streams, but
they're rivulets and that is just in my district. Nationwide,
they are in the tens of thousands and to have the Corps and the
EPA assert control over two-thirds of the country probably,
with no consideration of what it's going to cost is astounding
to me. I would have thought when you were preparing to come
before this Subcommittee with that kind of a rule being
proposed, you would have been really well prepared. I was
wrong. So, now what would the penalties be for the owners or
communities that violate the rule, because they are not aware
that you are regulating these new waterways? What would be the
penalty for them?
    Ms. Darcy. Sir, for our program, the applicant who wanted
to do something in that water body would come to us to get a
permit. There is no penalty for that. They would just have to
get a permit from the Corps.
    Mr. Rogers. And suppose they don't get a permit and go
ahead and build that bridge or road or whatever anyway? What
are you going to do about it?
    Ms. Darcy. I expect there might be an enforcement action,
but also we usually negotiate with our permit applicants to try
to come up with a permittable project.
    Mr. Rogers. Does the rule that you are proposing provide
for penalties for not abiding by the rule?
    Ms. Darcy. I don't believe so sir.
    Mr. Rogers. You don't know?
    Ms. Darcy. I don't know for certain, no.
    Mr. Rogers. Strike two. So under this rule, before they
could proceed, they would have to secure a permit or a license
or whatever from whom--the Corps?
    Ms. Darcy. If the project involved putting dredge or fill
material in a water body of the United States, they would have
to get a permit from the Army Corps of Engineers.
    Mr. Rogers. It is a dry bed, it looks like it once was a
creek, but it is dry. It has been dry for a thousand years. And
you are going to claim that that is a navigable stream, am I
right about that?
    Ms. Darcy. If it is determined that it has water body
connections, it could be determined to be a navigable water and
have to be permitted under 404 of the Clean Water Act.
    Mr. Rogers. Well, I hope you realize that that rule is
going to have a tough time up here, and to get the money to
enforce it is going to have an even tougher time, so thank you.
    Mr. Simpson. Thank you Mr. Chairman. Mr. Nunnelee.
    Mr. Nunnelee. Thank you Mr. Chairman. Improving and
promoting navigation has been one of the primary missions of
the Tennessee Valley Authority. You and the TVA have a very
close partnership. I understand the TVA has a Memorandum of
Agreement with the Corps for construction operation and
maintenance of the navigation facilities. I go through that
detailed description of the relationship with the TVA to get to
my question. Last year, the President's budget request ordered
a strategic review of the TVA, which to my knowledge and from
discussions as a Member of the Budget Committee with the
Director of OMB, they've yet to complete. The President's 2015
budget request includes language about reforming TVA.
    Considering the very active partnership between the Corps
and TVA, specifically the work done with the Nashville Corps
District, I am curious, has OMB consulted with you on who would
take over their role of the TVA?
    Ms. Darcy. No.
    Mr. Nunnelee. They have not talked with you at all?
    Ms. Darcy. No.
    Mr. Nunnelee. No. That pretty well answers my next
question. I will be submitting for the record. If we follow the
Administration's recommendation and divest TVA of all of its
non-power functions including flood management, navigation,
recreational, I will need to know how much money will we have
to increase your budget in order to accomplish that, and I will
be submitting that for the record. Moving on to a different
topic--last year I asked a similar line of questioning--
Congress no longer has input on specific Corps projects so that
leaves you with considerable discretion as to what projects to
pursue and at what rate. Two questions--how do you prioritize
those projects and how do you decide to pursue projects in
relation to the economic development project versus our
environmental projects?
    Ms. Darcy. Our budget is a performance based budget and
what each of those projects contributes to the value to the
nation overall, across our business lines, whether it be
navigation or flood control or aquatic ecosystem restoration.
We look at them across the board as to what we consider to be
the greatest value to the nation for that project.
    Mr. Nunnelee. And how do you balance economic development
and environmental issues?
    Ms. Darcy. All of those are considered in making the
ultimate decision sir.
    Mr. Nunnelee. All right, thank you Mr. Chairman. I yield
back.
    Mr. Simpson. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you. Thank you Mr. Chairman. I would
like to carry on with the full Committee Chairman on this new
rule. I have heard that the scientific study that the rule is
based on is not yet finished. Can you explain how you and the
EPA can justify publishing a rule when the report isn't even
completed?
    Ms. Darcy. The report to which you are referring to sir is
being considered and evaluated by the Science Advisory Board
for EPA.
    Mr. Calvert. But it is not completed. It has not been
ratified.
    Ms. Darcy. They will give their final determination before
the end of the year and before the rule becomes final.
    Mr. Calvert. Well, isn't that getting the cart kind of
front of the horse here? I mean until you know what the final
study says or has been completed, should you be issuing a rule?
The timing of this is questionable maybe because obviously you
are--let us say that this is a 90 day review. This new rule
would be in a legal effect you are saying by what--July 1st?
    Ms. Darcy. There is the 90 day comment period and then we
need to address the comments, so it is usually several months
after that.
    Mr. Calvert. So you are trying to beat the Appropriations
process here, is that what you are thinking?
    Ms. Darcy. That wasn't my thought at all.
    Mr. Calvert. The proposed rules--I understand it, would
define all tributaries as waters of the United States. As you
know, federal, state governments operate water delivery
systems, like my State of California. There is certainly the
Central Arizona Project, the Central Utah Project, obviously
the California Aqueduct Project, the Colorado River Aqueduct--
clearly fit the rule's proposed definition as a tributary,
since they have a bed, a bank, an ordinary high water mark, and
they conduct flow to other waters of the United States. Have
you considered what the impact of the proposed rule be on these
delivery systems, these water delivery systems?
    Ms. Darcy. Well, sir they are currently operating without
a----
    Mr. Calvert. Is this going to change the rules of the game
that we have been operating under for many many years?
    Ms. Darcy. I don't believe so.
    Mr. Calvert. You don't think so?
    Ms. Darcy. I don't believe so.
    Mr. Calvert. But it is not impossible?
    Ms. Darcy. It is not impossible but----
    Mr. Calvert. We have 50 million in the west that are
dependent on these water delivery systems. We don't know what
the cost implication has been indicated to your agency? You
indicated you don't know what the cost is going to be.
Certainly other Federal agencies that must regulate these
systems, these waters of the United States feel that this came
out of the blue. I know it came out of the blue to many of us
here on this Committee. But this is going to have profound, as
the Chairman indicated, profound implications to this country.
And I would hope that, Mr. Chairman, both Chairmen, that we
actively figure out something to stop this because this is
going to have a detrimental effect to the State of California,
the State of Arizona, the State of New Mexico--all these States
in the United States. I also wanted to ask some questions about
our little problem with the droughts in California. It's not a
little problem. But this is going to have effects on that. This
is going to have effects on every square inch of the United
States. So I'll submit the questions for the Aqueduct for the
record.
    Mr. Simpson. Would the gentleman yield to--for just a quick
moment?
    Mr. Calvert. Certainly.
    Mr. Simpson. Obviously, Chairman Calvert of the Interior
Committee has a great deal of interest in this also as Chairman
that oversees the EPA and I understand the EPA is going to be
before us tomorrow. Just out of curiosity----
    Mr. Calvert. Looking forward to it.
    Mr. Simpson. Did anybody in either the EPA or the Army
Corps sit back and say, you know, we are testifying before
Congress tomorrow and the next day. Do you really think this is
the time we ought to be issuing this rule? Did anybody say, go?
    Ms. Darcy. Well sir, this rule has been in the works for
almost three years. We had issued a guidance and we were
encouraged to withdraw the guidance and do formal rule making
which is what we have been developing for as I say, nearly
three years and we have put the rule out yesterday. We are
going to have to deal with it so why not deal with it right
now? Could have been three months earlier.
    Mr. Simpson. Well I'll have some other questions about that
in the next round. Thank you Mr. Calvert.
    Mr. Calvert. Thank you Mr. Chairman.
    Mr. Fortenberry. Thank you, Mr. Chairman. And secretary,
nice to see you. First, let me thank you for the effort on the
Western Clear Creek Water Flood Control Project. You became
intimately familiar with that, and helped provide the robust
funding. Important project, very significant benefit. Cost
analyses were done, and it's at a very high benefit to cost
ratio. Project has been in the work for years, and so I
appreciate the respect you accorded us, and the proper analysis
that was done and the funding that was given, so thank you very
much.
    I want to talk about the Missouri River. As you're quite
aware, several years ago, we had very significant flooding. The
Corps came under great scrutiny for how it was managing the
water flows. Can you give us an outlook on this year? There is
some concern, although it's mitigated of late, that flow
conditions could develop. Has the Corps re-evaluated its
formula?
    Ms. Darcy. Yes. I'm going to defer that question to General
Peabody, who's our Deputy Commanding General for Civil Works
and Emergency Response, and was in the Missouri River back
then.
    General Peabody. Well, yes, ma'am. I was part of the
Mississippi River commission in 2012, when I was the President
of that commission. The commission went up and spent one week.
Pretty much longer than the entire extent of the river saw the
light of the damages. Talked to all the stakeholders, both in
the upper and the lower reaches of the river.
    So the Corps continually re-evaluates the way we execute
our projects. However, in the case of the Missouri River, as I
think you are well aware, the Master Manual has effectively the
sanction of law through a court decision. And our professionals
who operate that do so in accordance with that.
    In the instance of 2011, we did have a high, although not a
record, snow pack, but the key variable in that flood was an
extremely extensive and unusually heavy rainfall over an
extended period of time in the mid-spring period, which
resulted in those record flows. It's impossible for us, with
the current state of meteorology to predict that far in advance
to predict, in March, going into the later spring period, what
kind of rain flows we would get.
    But I will tell you we are working very closely with NOAA,
and with the National Weather Service as a start to looking at
how the weather service might advance meteorology so that we
can have much longer range predictions, so that in fact, at
some distant point in the future, we might be able to
understand whether or not we have a high likelihood of heavy
rain, and then we might be able to alter the way we manage our
flows, whether we are holding storage or releasing storage, in
anticipation of either drought or heavy rains.
    Mr. Fortenberry. Explain your internal processes for re-
evaluating your ongoing modeling, because I think, as you put
it, your general guidance is given by the master manual, but
obviously, you have certain flexibilities, or I assume you
would, to make proper adjustments to balance the multiple
constraints you're under in terms of outcomes.
    General Peabody. The professionals out of the Omaha
district in this case manage that. Jodi Farhat, she's a
wonderful water management professional. Based on the various
purposes, which, primarily, in terms of the spring, have to do
with flood storage and navigation, there's a band within which
she operates for those multiple purposes.
    There are also spring releases related to environmental
purposes that have to be considered as well. And so, based on
the amount of snow pack, based on the likelihood of rain, then
she will make adjustments to how--and those are ultimately
sanctioned by the leadership in the district and the
northwestern division to do that.
    Mr. Fortenberry. So the broad parameters are set, but there
is flexibility within those parameters.
    General Peabody. There is some flexibility. I wouldn't say
it's robust, but there is some flexibility, yes, sir.
    Mr. Fortenberry. Should there be more?
    General Peabody. Sir, that's a policy issue. That's a legal
issue. We're following the law, and we're executing the
multiple purposes, the eight multiple purposes, which do come
into play.
    Mr. Fortenberry. Some competition--I understand.
    General Peabody. To the best of our intention.
    Mr. Fortenberry. Meeting multiple objectives.
    General Peabody. Yes, sir. I will tell you that my
observation from that extensive trip in the river is very
simply that, the multiple purposes--there are more claims on
those purposes then there is always water for the Corps to
meet. And so, sometimes it's difficult for us to satisfy all
the stakeholders who have various interest in the river.
    Mr. Fortenberry. Thank you, Mr. Chairman. Thank you.
    Mr. Simpson. Thank you. Mr. Kingston, welcome to the
subcommittee.
    Mr. Kingston. Thank you, Mr. Chairman. I don't want to jump
in front of the scene with Mr. Bishop as a Committee member.
    Mr. Simpson. That's right. I forgot, sorry.
    Mr. Kingston. I'm trying to save good graces with the
chairman and Mr. Bishop, so.
    Ms. Darcy. I want to thank Mr. Kingston for his bi-partisan
spirit. Thank you for that.
    Mr. Simpson. Mr. Bishop.
    Mr. Bishop. I thank you, Mr. Chairman, and I thank Ms.
Darcy for allowing me to come before the subcommittee. I do
have another subcommittees meeting right now. And I want to
than Secretary Darcy and General Bostick for their testimony.
But I just wanted to come and express my enthusiastic support
of the Savannah Harbor Expansion Project.
    There are not many issues that unite the Georgia delegation
like this one. In fact, if the project can bring together my
colleagues, as far apart on the political spectrum as
Congressman John Lewis and Congressman Paul Brown, there has to
be something really positive about it.
    This project was started under a democratic governor and
continued under two republican governors, and of course, over
the last 15 years, the state of Georgia has put over 256
million dollars into allocations for it, which is ready to go
once we can get the green light from the federal government.
It's been submitted for public comment, and I don't think
there's been any project in court history that's been more
analyzed than this one.
    Of course, I don't need to talk about the 174 million
dollars in economic benefit that we'll accrue to our country,
but I'm very, very concerned that with the continuous mention
of it and inclusion of it for several years on our
appropriation bills, and with the support expressed by the
president and the vice president, putting it on their 2012, we
can't wait initiative, I just don't quite understand how, at
this point, the conclusion has been reached without, as I
understand, a legal opinion--that it's outside the scope of
authorization.
    And I understood from Ms. Darcy that the mitigation was
outside the scope. When would the mitigation come into play,
such that it would be outside the scope of authorization? Would
that be sooner or would that be later, at the beginning of the
project, or well along in the project?
    Ms. Darcy. Congressman, the initial authorization for this
project didn't include this mitigation provision, which is why
a new authorization is needed; because that was not part of the
initial scope of the initially authorized project. And the
mitigation usually, it depends on the project, but it usually
is either done before or during the actual project
construction.
    Mr. Kingston. Will the gentleman yield? Because I'm
confused on that, because I'm looking at the original
authorization here, and it says subject to the paragraph B,
project navigation, including the mitigation plan in such
modifications as the secretary considers appropriate. And then
the next part of it says, mitigation requirements, the
mitigation plan shall be implemented before or concurrently
with the construction. So--as the author of this, it was very
clear to us that mitigation was absolutely, positively included
in the scope. But I'm reading right off here, and I don't see
how--I don't see how we're saying now that mitigation is beyond
this 1999 language. And I yield back to my friend, but I wanted
to follow up on that comment.
    Mr. Bishop. I appreciate that follow up. The gentleman
knows of what he speaks and I'm just still perplexed as to why,
without a legal opinion, all of a sudden someone comes up with
the wisdom that it's beyond the scope, when it seems to be
clear on its face that it's within the scope with original
authorization.
    Ms. Darcy. In the original authorization, as in reference
to the statute saying that mitigation is there, however in the
development of the ultimate project, that scope of the
mitigation had to be developed. So because of the mitigation
that is considered to be part of the increased scope that needs
to be authorized. I think that's the best way I can explain it
for you.
    Mr. Bishop. But the language was broad enough, as I just
heard it read, and I'm sure that you have read it, to be
inclusive. I mean, it seems like an after the fact conclusion
that now, it needs to be more specifically authorized when the
language was intentionally written broadly enough to include
that.
    We've been waiting for this project for a decade, and it's
putting the United States and the Savannah Harbor at a great
disadvantage when we are competing with the Panama Canal, and
it seems for no legal reason. It seems more arbitrary than
anything that I'm able to ascertain, and I really would
appreciate some enlightenment on that. Are there any other
ongoing projects where you know that the project will exceed
the 902 limit that are being continued, that have not been shut
down?
    Ms. Darcy. We are not funding to initiate construction for
any projects that we believe have a 902.
    Mr. Bishop. Well, I understand that there are three or four
projects in the 2015 request that would reach the 902 limit at
some point.
    Ms. Darcy. Not ones that we would be initiating
construction on, sir. The Savannah Project would be an
initiation of construction.
    Mr. Kingston. Mr. Bishop.
    Mr. Bishop. I'd be happy to yield.
    Mr. Kingston. I believe we have had construction money in
the budget since 2009. Is that not correct?
    Ms. Darcy. There has been money directed by the Congress in
the construction account for this project. That's correct.
    Mr. Kingston. Well, therefore, money has been in the budget
for construction account, and when you say that it's been in
the budget by Congress, is Congress not the lawmaking body?
    Ms. Darcy. Yes, sir.
    Mr. Kingston. So therefore, there's money in the account
for construction. And it would fall within the parameters that
Mr. Bishop suggested. And let us say this--you've been a very
helpful, very patient advocate, and we know where you are on
this, and you have been very professional on it. But the
frustration with the bureaucracy, and it might be with OMB, far
more than the Corps, but there's some glitch here that we're
trying to put our finger on.
    Ms. Darcy. This project, in the view of the Administration,
needs to be authorized before we can put any construction
dollars on it.
    Mr. Bishop. But you know, we are--reclaiming my time, we
are fairly well satisfied, and we have no legal opinion on
either side of this issue to the contrary that it has been
authorized. And construction money has been placed in the
budget. It appears to all of us who are supporting this
project--it just needs a sign off by the Corps.
    And I'm not sure that OMB really has the authority really
to--it's my understanding the Corps is the designated signature
that's required.
    Ms. Darcy. In order for us to move forward on the
construction on this project, it is viewed from the
Administration that this is a fiscal concern, a fiscal
responsibility that in order to move forward with construction
dollars, we have to have the entire project authorized.
    Mr. Bishop. Well I thank you for your patience. But I just
have to underscore the extent of our frustration on a
bipartisan basis, that is just seems to nor be consistent with
the law. It does not seem to be--it doesn't appear to be
consistent with the will of the Congress, and we're facing what
appears to be a challenge of the separation of powers. It's as
if the executive branch is unwilling to execute the will of the
legislative branch, which has clearly expressed that will over
a period of years and over a period of legislative actions. And
I'm just completely frustrated.
    Mr. Kingston. If the gentleman will yield. I wanted to ask
General Bostick a question about this, because it--Mr. Bishop
alluded to other projects that have been able to clear the
hurdle. Five, specifically, as I understand it, in the past two
budget requests.
    And so, what I don't understand is why is it that the
Savannah Harbor Expansion Project hasn't been able to do that,
and yet the Vice President, in a very, very high profile way,
in September, came to Savannah, said he's all, you know, for
it. In fact, you know, one of the things, he says, it's time to
get moving, I'm sick of this. Very specifically. And then the
President said it publicly on the Jay Leno show, and so if we
need authorization, why hasn't that been requested, if we need
further authorization?
    General Bostick. I think everybody wants to see this
project move forward. It was one of the first places I visited.
It as an example of the type of project that just takes too
long to get going. And from the President on down, I think
everyone has been pushing to try to get this moving forward.
And all of us worked together to try to figure out how we can
do this, and in the final analysis, the determination was made
that because of the scope changes----
    Mr. Kingston. Well, General, I have to say the scope has
not changed. I'm looking at the language. The scope hasn't
changed. When we wrote this in 1999, should it be determined
there would need to be a fish ladder in Augusta, three hours
upstream, that was contemplated. And should the Department of
Commerce say you need to do something about the oxygen in the
water, that was contemplated. And should the EPA say you have
to do this, that was contemplated.
    So we keep hearing, and I say this with great respect,
because we're--if we're all for this, there's got to be
somebody that's not for it. Or it would have happened. And so
what I don't understand is--this was in the scope of the
mitigation. The mitigation is--Mr. Bishop says, you know, back
in the days when we all had honest jobs, he was a very
distinguished attorney, so he knows mitigation, it's a broad
term. Mitigate could mean a lot of things.
    General Bostick. I think this is the interpretation. I
can't speak to it specifically, but I think some of this has to
do with the magnitude of the scope changes, as opposed to the
specific areas. But when you look at the magnitude of what
changed in the environmental mitigation, it was significant
compared to what the project was, when it was passed by
Congress.
    Mr. Kingston. Now sir, I will say this very respectfully.
As the prime author of this language, we had the entire
environmental community involved. We had the historic community
in. We had everybody at the table, which is why, as you know,
we had to have the sign off of four federal agencies in order
to move forward.
    And then, looking at mitigation, our litigation was South
Carolina, but we knew it was going to be a huge, tremendous
lift to get this done. And so, the fact that the scope--the
scope is about where we thought it would be, but what we did
not contemplate was a 48 million dollar study over a 14 year
period of time, that would drive the cost of this project so
far beyond the 902, because as you know, it was originally a
270 million dollar project.
    Now we're looking at 650 million--14 years later, down the
road, and so I would say respectfully, there's not new and
surprising mitigation. I'm not aware of one single thing where
we found an endangered species, or there's a historic village
underneath the river or something that we didn't contemplate.
Everything that is in this mitigation plan was basically
contemplated. Maybe not enumerated, but it was generally the
duration that we thought it would go in.
    General Bostick. When I talked about scope, I was talking
from a value, a dollar value threshold. The mitigation was
considered. In terms of the magnitude of that mitigation I
think some folks who feel that there was much more than it was
intended by the initial authorization.
    Mr. Kingston. But it doesn't matter what they think. It
matters what the law is, and the law was about mitigation. And
then I'll ask you, because Secretary Darcy has asked this. Did
you get a legal opinion from your council, saying that you
can't sign the PPA?
    General Bostick. I did not have a legal opinion from my
Counsel.
    Mr. Kingston. So, are you legally able to sign the PPA?
    General Bostick. I would have to seek a legal opinion.
    Mr. Kingston. Do you think you have the legal authority to
sign the PPA?
    General Bostick. There was a legal opinion done at the
district level.
    Mr. Kingston. And what did that say--and I probably should
know about that, where they felt that they--that we could sign
the PPA.
    General Bostick. So the Corps District that has the
jurisdiction and the authority over it has rendered a legal
opinion that says, you can sign the PPA. That's my
understanding.
    Mr. Kingston. Is it normal that the local Corps kind of
take the lead on this? Is that standard practice?
    General Bostick. Yes. Normally, we try to power down and
allow the districts, they're all very different and unique to
do the work that they need to do. On something of this
magnitude, it's what we call a mega project, it would come up
to the headquarters, and we would then do the work that we need
to do.
    And we try to do this on three levels, which is really what
started the 3 <greek-e> 3 <greek-e> 3. Doing the feasibility
study for less than three million dollars, less than three
years and at all three levels of command. So this was an
example. We would be working in concert with the district in
this case.
    Mr. Bishop. Will the gentlemen yield?
    Mr. Kingston. Actually, it's your time.
    Mr. Bishop. Thank you. So I understand that you--the
district--at the district level, the court did have a legal
opinion from its attorneys that the core had the authority to
sign off. Had that legal opinion been contradicted by any other
legal authority?
    General Bostick. We didn't reach the point where we made a
legal opinion at the headquarters. And before we made any legal
opinion at the headquarters, we worked it as a team with the
Administration, looked at everything, at all facets of this
project and the final determination was at--and I know you
don't want to hear this, but because of the scope changes, that
it really needed to be, authorized by Congress.
    Mr. Bishop. That's not a legal opinion. That's a political
opinion, would you say?
    General Bostick. It's not a legal opinion.
    Ms. Darcy. I believe that the administration made a policy
decision that this project needs to be authorized before it can
get construction dollars. And I know that you see it as, it has
been authorized because of the 99 WRDA, but because of the
expansion of the project and the increased cost, the
administration believes that it needs to be authorized before
construction dollars can be appropriated.
    Mr. Bishop. It does not appear to be a legal opinion. I go
back to my political science 101 at Morehouse College, where we
were told that politics was nothing more, nothing less than who
gets what, when and how. And this just seems to be squarely
within that definition. Not based upon a legal interpretation
of what's legally authorized, but on just a raw determination
of who's going to get it and who's not.
    Mr. Kingston. And, if the gentlemen would yield. If the
local division has made a legal opinion that you can sign the
PPA, I don't understand why, without another legal opinion that
overrides that, we haven't moved forward with that signature.
    General Bostick. We had not gone through the process of
making a legal opinion at the headquarters level, which we
would normally do on a project of this magnitude.
    Mr. Kingston. Well, General, when we passed the legislation
in January, you know, in the wake of the President saying he's
for it. The Vice President coming to Savannah and saying he's
for it, and then Congress passing a 902 waiver in January and
recognizing that as a construction account, and since 2009,
having money in the construction account, I don't quite
understand it, unless there's an intentional reason for
somebody to say no, let's don't do that.
    And Mr. Chairman, 902 is the force of law with Congress,
saying that we waive the law about the dollar. Is that not
correct?
    Mr. Simpson. Correct.
    Mr. Kingston. I don't understand at all, when you have all
that going that I just enumerated, why the PPA would not have
already been signed. Especially without a legal decision. You
know, I could see if somebody says oh wait, you know, the folks
down there in Savannah don't know what the heck they're doing.
And is there a reason to believe that the lawyer who made that
decision is incompetent, or, I mean. And I'm not trying to get
a food fight on that. I'm just saying, you know, what casts
doubt on somebody that you pay to render a decision?
    General Bostick. There is no doubt, our lawyers are highly
competent and I respect and value his legal opinion. And, you
know, I think there are differences of opinion on all issues
that we wrestle with, whether it is SHEP or anything else and
what we have to do is come to an agreement at the senior levels
on the appropriate way to go. I think there were some that
clearly saw that we had the authority and could move forward
and some of those were from a legal standpoint. And then there
were some that saw and viewed that there were enough changes
that in order to move forward that Congress really needed to
authorize this is in WRDA and that was an interpretation of the
law and the scope of the project. And I think at the end of the
day the Administration position was as Ms. Darcy stated.
    Mr. Simpson. We have probably pursued this about as far as
we are going to get. It was actually Mr. Bishop's time but who
knows that because Mr. Kingston and Mr. Bishop have been
pursuing this. I think we've probably got the same answer
several times.
    Mr. Kingston. Could----
    Mr. Simpson. Do you have a----
    Mr. Kingston. Yes. I have a----
    Mr. Simpson [continuing]. Closing statement?
    Mr. Kingston. I actually do, I actually do. Madam
Secretary, after WRDA has passed would you sign a PPA
immediately? There would not be more mysterious legal opinions
floating around out there or something.
    Ms. Darcy. I would do everything in my power to sign a PPA
if WRDA is passed.
    Mr. Kingston. What would keep you from signing a PPA after
WRDA is passed?
    Ms. Darcy. I don't know that there would be anything to
stop me but I want to commit to you that I will do everything I
possibly can to get a PPA signed for this project if WRDA
passed.
    Mr. Kingston. Okay. And we appreciate your position and you
have been very good with your time and very helpful to the
Georgia delegation. Well, thank you.
    General Bostick, you know our shipping friends, you and I
were meeting with them a couple of months ago down at the
Georgia Trade Conference. You know how they have a gun to our
head to get this thing done and, Mr. Chairman, I'd appreciate
the time. What I would like to do though is I'd love to have
that legal opinion from the Savannah District maybe submitted
for the record and I would like to have another legal opinion
overriding so that we could all know why that legal opinion by
the people on the ground paid to do that isn't sufficient. And
hopefully the lawyers that you seek will find out, no, those
guys are right.
    Mr. Simpson. Appreciate it. And thank you all for your
bringing this question up. Mr. Hobson and I visited this
project back when I was just a small child so it's been going
on for----
    Mr. Kingston. We all were, Mr. Chairman.
    Mr. Simpson. Everybody says we need to do this, everybody
says we want to do this. And you wonder why people are
frustrated with government? Everybody agrees that we want to do
this, et cetera, et cetera. There is a little disagreement
about whether the scope of it is expanded beyond and would
require reauthorization. That seems like something that adults
would sit down and work out. I am tempted to ask what the name
of the person in the administration or OMB or whoever it is
that has a problem with this or says that it needs to have a
reauthorization but I don't want to put anybody on that kind of
spot, so I won't ask that question and I'll get onto something
very important. And that is the Ririe project in Idaho. We will
work with the Georgia delegation and with the Army Corps and
whoever is down there in those office buildings that is trying
to--I don't--it just seems to me, and I'm not a conspiracy
theorist but it just seems like there is more going on here
than just, does this have to be reauthorized or not
reauthorized. Because that is something adults could sit down
and work out.
    The Ririe Reservoir in Bonneville County was built by the
Corps of Engineers, now a Bureau of Reclamation owned and
operated reservoir with flood control authority administered by
the Corps. The water users there are very interested in the
possibility of additional water being carried over from one
water year to the next which would require a change in the
flood control rule curve. The water users have been working
with Reclamation on a study and possible changes. General
Bostick, has the Corps been involved in any of this and what
would the activities need to be if they propose a change in the
water rule or flood control rule?
    General Bostick. The Corps has been a partner with the
Bureau and that study is being finalized now, Mr. Chairman. The
draft evaluation study and the environmental study do not
include a comprehensive winter flood risk analysis and the
Corps' role would be to conduct that winter flood risk
analysis.
    Mr. Simpson. Okay. But you are planning on doing that?
    General Bostick. Correct.
    Mr. Simpson. Okay. Now I have got to go back to something
that is not as controversial as the Savannah Project--and that
is this clean water jurisdiction rule making. Chairman Calvert
brought it up a little bit and it is rather stunning to me that
they propose this rule and they say it's supported by science
but that's a little hard to believe when you look at the
sequence of events as Mr. Calvert noted. The scientific
assessment which is part of the science section, otherwise why
would you do it, but the scientific assessment is not finished
yet the EPA has said the scientific assessment will be the
foundation of the rule, sometimes called the synthesis report,
which is still in draft form. So it hasn't been finished yet.
And then we're asking citizens, giving them 90 days to comment
on this rule, when the scientific assessment hasn't been done
yet. Is that a little bit bizarre? And I know you have been
working on it for three years because we have been trying to
block it for three years. And I will guarantee--well, I won't
guarantee anything, but I will strongly suggest there won't be
an appropriation bill that passes that doesn't have a
restriction on funding of this rule in it for both the Army
Corps of Engineers and the EPA.
    It has not been a critical priority of the past, it has
been a concern. And so we've had legislation preventing
implementation of the rule, funding for the rules in different
appropriation bills, and we've always dropped them in
conference. I will guarantee you that the Western part of the
country is not going to drop this.
    And the perception out there in the public is this has to
be done for good reasons as if none of those waters are
regulated today. And somehow they have got to be regulated by
the EPA and the Army Corps under the Clean Water Act. They are
regulated waters, they are regulated by the states and the
states do a good job of it in most cases I would suggest. So we
have a great system already in place--this is the lifeblood in
the West as you all know. And so this rule is kind of stunning
to me that they came out. And I understand that the Courts have
said well, we need to clear up this language of what navigable
means. We need some certainty. And I will tell you the Farm
Bureau, the forest owners, all of these different people say
yeah, we need to clear it up, we need some certainty. But as I
said before, you know, hanging is a certainty; I'm not sure
it's the result you want. So just having certainty of what we
are going to regulate: everything from every mud puddle or a
pond in the country, that is the kind of certainty that we
need. And I have also got some question about the limitations
on the whole decision that you have got now in the, what is it,
the Swan CC, the----
    Ms. Darcy. SWANCC.
    Mr. Simpson. SWANCC. And the Rapanos decision clearly
stated that the Corps and the EPA had gone too far and that the
Federal jurisdiction under the Clean Water Act is not as broad
as they had claimed. To be consistent with those Supreme Court
decisions then any new rule would necessarily have to leave to
the states regulation of some waters previously regulated by
the states. So this rule seems to be contrary to what the
decisions of the Supreme Court are. If it's saying that you are
interpreting this far too broadly under this rule what waters
that are currently regulated by the Federal Government will no
longer be regulated by the Federal Government under this rule?
Are there any?
    Ms. Darcy. I don't believe the rule expands the scope of
what is currently a jurisdictional determination by the Corps.
It makes more clear what's in and what's out. We have also
accompanied this proposed rule with an interpretive rule that
interprets the agricultural exemptions in the Clean Water Act
and makes it clear what's exempted which included agriculture,
silviculture and ranching activities, including those
activities that had been undertaken since the passage of the
original Clean Water Act that the National Resource
Conservation Service has deemed to be conservation practices
that will help improve water quality. All of those activities,
those farming, ranching and silviculture activities would be
exempt under the Clean Water Act for those ongoing activities.
    Mr. Simpson. I will tell you that there's a great deal of
concern that that is not going to be the case. This is seen as
a huge overreach by the Federal Government.
    The proposed rule, while claiming to bring certainty
contains some concerning ambiguity as to the true scope of the
jurisdiction being claimed by the Federal Government. For
instance one section indicates that all waters within the flood
plain would be jurisdictional but it does not specify the scope
of the flood plain. Are we talking the 100 year flood plain,
the 200 year flood plain, the 500 year flood plain? Similarly
the proposal discusses aggregating impacts from similar waters
within a watershed but does not adequately define the extent of
the watershed to be reviewed. The Mississippi River watershed
includes all or parts of 31 states covering over 40 percent of
the lower 48 states. I certainly hope that is not the watershed
that we are talking about envisioning in this rule.
    Ms. Darcy. The scope of each watershed will be determined
by its connectivity was One of the biggest outcomes from the
Rapanos and SWANCC decisions. The connectivity of waters to
another water body as to what they are--and how that would be
viewed as jurisdiction.
    Mr. Simpson. Connectivity? Trying to define connectivity is
a lot like trying to define navigable. Basically everything is
connected. Water is evaporated, it goes into the sky, it falls
as rain on lands and then runs into--I mean that's the cycle
that happens. So where is the connection there? Now we're going
to control rain. That term is about as imprecise as navigable.
    Ms. Darcy. One of the provisions in the rule for which we
are asking for public input on what those other waters and that
connectivity, should be defined.
    Mr. Simpson. There is going to be some big, big kickbacks
on this; I got a feeling. As I tried to say earlier I was
shocked when it was proposed yesterday, the day before this
hearing and two days before the EPA's hearing because it's, you
know, it created a target rich environment.
    Ms. Darcy. We need to defend it.
    Mr. Simpson. But thank you. We will have more discussions
on this I am certain.
    Ms. Darcy. I am sure we will.
    Mr. Simpson. Miss Kaptur.
    Ms. Kaptur. Well, this has proven to be an exciting hearing
this morning. Maybe you don't feel that way but, you know, I
keep thinking, we have an open society and, the Executive
Branch meets the Legislative Branch and the American people are
listening out there in some way. So the system is working
though sometimes it feels like you are on the hot seat. And I
guess that is the way it should be. We often feel like we are
on the hot seat, right?
    And so let me move to a request first. General Bostick, I'm
wondering if before the end of April you would agree to come
here with the best expertise you have within the Corps and
anywhere else in the administration, perhaps it is CEQ, as
Secretary Darcy mentioned, and give us an update on the Asian
Carp threat to the Great Lakes and specifically what has been
done and what is being done to prevent its entry. Is that
possible for you to do that?
    General Bostick. Yes, ma'am, we can do that.
    Ms. Kaptur. All right. Thank you very much. I wanted to now
switch quickly to a question related to exports. The
administration has a goal to increase exports and there are
different ways of measuring activity across our country but in
terms of the Great Lakes ports it has been brought to my
attention that the latest addition of the Corps Waterborne
Commerce Report appears to have missed about 18,000,000 tons of
cargo exported to Canada. For instance from the Port of Toledo
they have shipped over 3,500,00 tons of coal to Canada for
example in 2011, yet the Waterborne Commerce Report credits it
only with 1,300,000 tons, a difference of 2,200,000 tons.
Another port, Sandusky, was credited with a 1,400,000 tons of
coal exported to Canada in 2011 when in fact the number was
2,600,00, nearly double that. The question is will you work
with stakeholders and other governmental agencies to ensure
that Waterborne Commerce more accurately reflects the cargo
shipped, particularly cargo exported from the Great Lakes
ports? Who is best to answer that question?
    General Bostick. Yes, we would work with stakeholders on
that. One of the things goes back to what you were saying
earlier about the Great Lakes being seen as a collection of
projects. When you take a look at the entire Great Lakes and
its capability, it would rival just about any watershed. We
don't budget that way as you know, but I think what we are
trying to do is take a look at the way that we budget now and
in a parallel process try to think about entire systems. We've
got a long way to go but I think in doing that we would pick up
on some of the points that you and stakeholders are making.
    Ms. Kaptur. Thank you, General Bostick. The fine work of
Congresswoman Candice Miller of Michigan in the WRDA Bill to
look at the Great Lakes as a system is something that many of
us, I mean we share. And we really need your help and we need
the administrative structure of your Corps to recognize our
existence as a system and help us feel that you do by the way
that you structure various activities. And we'd like to talk
with you further about that so that our watershed gets the kind
of attention that we feel that is deserved.
    I have a question for the record in fact on the Saint Clair
River which directly impacts Congresswoman Miller's district
and I will submit that.
    But I wanted to turn quickly to the Soo Locks. Peter Kakela
of Michigan State University estimates that four percent of
U.S. gross domestic product depends on proper operation of a
single lock located in Sault Ste. Marie. The Corps recently
hosted an expert elicitation in Detroit, thank you for coming
to our watershed, to look at some of the assumptions that went
into that replacement lock study and based on the elicitation
it appears prior to a contrary study that rail, the substitute
shipping mode if something happens to the waterborne
opportunity, rail lacks both the connectivity and capacity to
respond to a lock failure. I want to commend the Corps for
incorporating stakeholders knowledge into the process, but my
question really is what are the next steps with regard to the
expert elicitation and how will the group's conclusions be
incorporated into the Soo Lock replacement study and how much
is the current need at the Soo Locks and when do you anticipate
the elimination of the backlog?
    General Peabody. Ma'am, thanks for that. As you may recall
I commanded the Great Lakes and the Ohio River Division for
three years three years back. I'm not familiar with this expert
elicitation. I'm assuming that the Detroit district was
involved with it.
    Ms. Kaptur. Yes.
    General Peabody. So my first action is to look into exactly
what you are talking about and understand it. However I would
advise that we'll take that information into consideration and
if there is any technical data that would change the Corps'
analysis of the viability of that project then we would
initiate some kind of reevaluation report and we would send it
forward to Miss Darcy for her review.
    Ms. Kaptur. All right. I thank you for your response to
that. And, General Peabody, based on your experience on the
Mississippi River I have to ask you this, give me some
assurance on the Carp, where are they? Where are they in the
Mississippi? I'll tell you former Congressman Costello was here
from Illinois and his river down near Southern Illinois,
completely infested, all the native species eaten up. It's just
like a giant vacuum. This does not give members a great deal of
confidence in what we are doing as a country. So to your best
knowledge along the Mississippi and all of the potential
waterway entry points what's happening?
    General Peabody. Ma'am, in my view the Federal Government
has responded. There's a lot of frustration in the Great Lakes,
and by the way I'm from Norwalk, Ohio, so I'm from this region.
In my view the Federal Government has responded with great
energy and determination. It has been a remarkably well
coordinated response not just amongst the interagencies of the
Federal Government but also, as Miss Darcy mentioned, with the
states effected. As I understand it, the Province of Ontario is
now joining the Asian Carp Regional Coordinating Committee. So
we're reaching out across international boundaries as well.
    Ms. Kaptur. We have to.
    General Peabody. Yes, ma'am. The area that you're talking
about in the lower Illinois River appears to be uniquely well
suited to supporting populations of Asian Carp, however we have
not seen any evidence of the further migration of Asian Carp up
the Illinois River in about a decade. That's not to say we are
not concerned, we are. As you are well aware, we continue to
work with our partner agencies to search for potential evidence
of Asian Carp using the environmental DNA that the University
of Notre Dame and Dr. Lodge developed. We have further advanced
the ability to have confidence in this methodology but we've
also found that just because you have evidence that DNA of
Asian Carp is in a particular area, without evidence of
physical presence of fish, there are other pathways for that
evidence to get to where it may be to include bird dropping. We
found physical Asian Carp decaying off of barges north of the
fish barriers and so forth. General Burcham and her staff are
energetically improving the suite of the complex of electric
fish barriers in the Chicago Sanitary Ship Canal. We are
continuing our research and development studies to determine
the effectiveness of that. As we do that we are finding some
areas of potential concern. For example it is possible that
some fish may be entrained in the wake of barges that transit
through that area. So we are now researching exactly what
parameters of fish might be involved and what action we maybe
take to increase the surety and reduce the risk that fish may
migrate.
    At the end of the day, ma'am, in my view though, what we're
fighting is a biological entity that migrates by multiple
means, not just by swimming and therefore it requires a
multifaceted biologically oriented response that is not
necessarily the exclusive domain or expertise of the Corps of
Engineers. That is why we are partnering with so many other
agencies. I'm personally very confident that in the near term
we can keep Asian Carp from establishing a population in the
Great Lakes. In the longer term I agree with you that we need
to continue to look at all possible avenues going forward and I
think we are doing that through the Asian Carp Regional
Coordinating Committee.
    Ms. Kaptur. Were you aware that in Southern Illinois the
Carp had infested rivers and has completed destroyed the fish
populations there?
    General Peabody. I'm well aware of that, yes, ma'am.
    Ms. Kaptur. All right. And who really follows that? One of
the questions I have, we can try to build this wall to prevent
passage but what's being done to drive them back down the
Mississippi and to get rid of them?
    General Peabody. To my knowledge, ma'am, we don't have any
authorities to do that. That expertise to address that issue
would rely outside of the Corps of Engineers primarily,
although I think the Corps could probably be a supporting
agency in that regard and again this would become a policy
issue that would be more in Miss Darcy's domain.
    Ms. Darcy. There are some ongoing efforts including netting
in the Mississippi to try to not only identify but capture
Asian Carp in the River. There have been some programs to
establish incentives for people to fish Asian Carp and find
markets for them in places not only in this country but around
the world. You know, to eradicate them I think is a lofty goal
but some efforts are being undertaken to reduce the population
in the Mississippi.
    Ms. Kaptur. Well, you know, I have not seen a map that
shows density of that fish population or location. If you don't
have it does our government have it?
    Ms. Darcy. I would expect the Fish and Wildlife Service
might but we can find out.
    Ms. Kaptur. I think we really need a plan here. I was
reading in the Everglades they're trying to capture those
pythons and they only captured, what was it, 80 of them or
something out of----
    Mr. Simpson. Not enough.
    Ms. Kaptur. They don't even know.
    General Peabody. Yeah.
    Ms. Kaptur. I think this is not that challenge, this is a
different challenge. But I really think we need the
ichthyologists in on this and we need to know fish densities,
where they are, at what rate they travel. I have been in
Congress a long time, I have not had one good briefing and I
have not read one report that really gives me any confidence we
know what we're doing in terms of the movement of these live
creatures. And so I find out by anecdotal evidence from
colleagues who represent these areas in trying to figure out
what is happening, how fast are these things traveling, how
many of them are there, where are they spawning. You know, this
far along in the process we should have this down as if it were
a foreign army invading and we don't.
    General Bostick. We've got a number of those details I
think we can bring and talk to you about. For example we know
that the largest adult Asian Carp are about 55 miles from Lake
Michigan and they haven't moved, as John Peabody said, in
years. And the small Asian Carp are about 140 miles away from
Lake Michigan. We can show you where we believe they are and,
how much they've moved on the rivers. I'm not sure if we can
show you density type things but we can give you the kind of
information that will help show you what we are looking at now.
    Ms. Kaptur. Does it look like a pyramid, General, where
most of them are still down South and we just got this
beachhead coming North, or is it the other way? Have we
actually got an upside down pyramid? What's going on?
    General Bostick. You mean in terms of a smaller amount
that's coming--I really don't know; you are getting to the
density piece. I just know the closest sighting that they've
seen on the Illinois is about 55 miles away from Lake Michigan.
Now whether that's an up or down pyramid I don't have the
answer to that.
    Ms. Kaptur. All right. And perhaps within the
administration there's someone----
    Ms. Darcy. I was going to say that, with what information
we have, I would offer that we would consult with the Fish and
Wildlife Service and offer them to join us on any briefing we
have for you on density and doing the mapping because they have
the expertise for the mapping. They and the U.S. Geological
Service have done a great deal of work in this area.
    Ms. Kaptur. And we have to task fishermen, there has to be
a plan for this country that no matter where you are along the
Mississippi or if you're on some river in Illinois or wherever
you are, we need an aggressive approach to this and we have to
figure out what that is. And the Corps is in a major position
to bring people on board that have other talents to add to
this. But we just simply need a more aggressive approach and to
fish these things out to involve local stakeholders and to
mobilize the public. Our job is mobilization, right? We do it
in our own elections. And believe me there is enormous interest
in this in our region as you well know. So we will appreciate
your gathering the best experts. And if there are from the
outside, I mean if National Geographic or Fish and Wildlife
Magazine or whoever is out there in the general public that has
knowledge, please seek to engage them because we obviously
don't have a perfect solution here and we need everyone's help.
    General Bostick. We will do that.
    Ms. Kaptur. Thank you. Let me ask a question about the
Chicago Sanitary and Ship Canal. What is the current status of
that ship canal dispersal barrier project and when is the
anticipated completion date? The Fish and Wildlife Service, by
the way, recently released a video of schools of fish swimming
through the barrier and are you doing anything to determine
what is happening there, what kind of fish they are? So can you
give us an update on that barrier?
    General Peabody. Is this the one you just talked about?
    Ms. Kaptur. Yes.
    General Peabody. Ma'am, in terms of the fish barrier, there
are two barriers that are in operation now and there is a third
barrier that is under construction. I'd have to verify it but I
believe that it will be complete in 2016. So this gives us
double redundancy. Now we have single redundancy which is very
important because if for some reason we need to do maintenance,
which we do need to do periodically. We have to shut one down,
make sure the other is operating and this enables us to do
that.
    With regard to the evidence of fish that are swimming
through, the evidence that we have is somewhat new. It's only
in the last few months that we have this and we're working very
closely with the Fish and Wildlife Service to understand (a)
the size of the fish, and (b) the species of the fish. As I
recall they are chad.
    Ms. Kaptur. There are at least four. They're not----
    General Peabody. I would have to verify----
    Ms. Kaptur. Oh, you mean the ones that are swimming through
the barrier?
    General Peabody. Yes, ma'am, that is what I am talking
about. Now what is of concern is that they are swimming
through. That is of concern. It appears to be they are only
very small and that makes sense because the smaller in size,
because of the smaller body area, the less they are susceptible
to the electrical currents. Why is that good news? Because as
General Bostick indicated the populations that are actually
spawning are 140 miles or so from Lake Michigan, about I think
100 miles or so from the barriers themselves. And when they
spawn they float and they float downstream. So as long as we
can continue to keep the spawning populations a fair distance--
and these are several locks away; locks and dams are physical
structures and obstacles. As long as we can keep these several
locks and dams, several dozens of miles away from the fish
barrier then we are in much better shape. If we were to have a
spawning population in that pool, the Brandon Road Lock and
Pool just below the fish barrier, then I would be extremely
concerned. But we are not at that point.
    So basically we're continuing to research what this
information tells us and to research how we might modulate the
operating parameters of the fish barrier in order to counteract
that possibility of any size of fish schooling through the
barrier.
    Ms. Kaptur. All right. Please bring that information with
you when you brief a larger membership. Thank you.
    And finally on Cleveland Harbor Dredge Material Disposal I
mentioned in my earlier remarks what the Corps officer in
Buffalo had said. Secretary Darcy, the Corps recently requested
from Ohio EPA to dump 180,000 cubic yards of sediment dredged
from the Cuyahoga River and Cleveland Harbor Navigation Channel
into Lake Erie rather than using the confined disposal
facility. Can you explain to us why this approach is necessary
and what the environmental impacts would be and if you would
reconsider that decision?
    Ms. Darcy. Yes. As you mentioned we are currently awaiting
a 401 water quality certification from the Ohio EPA for this
plan. We analyzed where we could put the dredge spoils for the
entire river. What we determined according to our standards and
EPA standards is that 80 percent of the dredge material from
the Cuyahoga River is suitable for lake placement. The other 20
percent of the river which is the closest to the lake, this 80
percent is closer to the steel mill, the upper reach of the
river, and that other 20 percent is not suitable for lake
disposal so we would continue to put that 20 percent of the
dredge materials into the confined disposal facility that we
currently have. However that confined disposal facility is
filling up quickly and so we looked at options. The option for
placing the 80 percent in the lake will give us extended life
to that facility in Cleveland. That would give us 10 more years
of capacity as opposed to the 2 years that we have now. We were
looking at ways to extend the disposal life as well as what is
most cost efficient and cost effective. However for that plan
to go forward we need the 401 certification from Ohio EPA and
I'm told that we are expecting to get a decision from them one
way or the other within the next two weeks.
    Ms. Kaptur. I would urge you to consider because of the
nature of Lake Erie being the shallowest of the lakes with all
of the challenges that it has with algal blooms which is a
whole other issue but extraordinarily important to the health
of that lake, and the microcystis and some of the toxic algal
blooms that have plagued us over the last several years, to
consider something creative with those dredge materials. There
are lots of places on Lake Erie for example where shorelines
have eroded or where beach fronts have to be restored. And if
the material is tested at Vicksburg and it proves to be clean I
would ask you to look at some other alternatives beside open
lake disposal. Is that possible? Is it possible to work with
the Corps on that?
    Ms. Darcy. Sure. For looking at other alternatives, what I
would like to do is check with the district to see whether we
did look at other alternatives other than open lake disposal as
an alternative. I'm going to say I hope that we did because
usually when we get to this point we've looked at all
alternatives and found which is the least cost alternative and
that is what the open lake disposal would be for that 80
percent.
    Ms. Kaptur. Well, is that true?
    General Bostick. That's true. We have been looking for
years, looking at different options.
    General Peabody. We have even looked at hauling some of the
material to, I'm trying to remember which island it is that has
a quarry in Lake Erie to place the material there.
    Ms. Kaptur. Yes.
    General Peabody. The bottom line, ma'am, is we're running
out of options and the alternative options are getting
increasingly expensive, far above the current cost to place in
the CDF which is already very expensive at I believe around
$15.00 a yard.
    Ms. Kaptur. Yes. And you know we have a number of companies
like Scott's and others that look for inputs and the commercial
value of some of this is something that we need to really pay a
little bit more attention to. And so I would love to--we have
sent former samplings from the Toledo Harbor area and from
dredging that's been done in the Western basin to Vicksburg.
This was a number of years and it was suitable for soil
compliments. And so the question is can we work with certain
instrumentalities that exist privately and maybe even publicly
to restore sites as opposed to just open lake dump. And we
would love to work with you on that.
    So I know Mr. Graves has a question here. I appreciate his
waiting and I would love to have you agree to work with us on
this dredge material from Lake Erie. Because essentially just
for the record, so you know, part of that material comes from
the largest watershed in the Great Lakes which is the Western
basin and it gets thrust out into the Lakes through the largest
river that drains into the Great Lakes, the Maumee, and it
eventually ends up in all kinds of places and has to be taken
up so we can maintain our shipping channel. But there simply
has to be a better way of handling this vast amount of organic
material and of silt that has come from this watershed that is
actually a tri-state watershed along with what drains in
through the Cuyahoga River and is less toxic actually than some
of the other material that comes in to Lake Erie. So we would
like to work with you on beneficial reuse if possible.
    General Bostick. There are some creative innovative ways to
look at this that are within our authority and we are happy to
work with the local stakeholders and the local district and be
happy to talk to you further.
    Ms. Kaptur. All right. Thank you so very much.
    Mr. Simpson. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman, and I appreciate the
indulgence today for our delegation by yourself and the ranking
member for allowing this debate and dialogue from multiple
members of the Georgia delegation. And not to rehash anything,
but in the spirit of this discussion I was looking at the
coffee mug here, it is from the Corps. It says ``Communication
Reminders'' on this side and it is, ``Listen to All,
Communicate Early and Often, Be Accessible and Do What We Say
We Will Do.'' And sort of in the spirit of that I was
listening, General, to your comments earlier and you referenced
a meeting that had taken place in which decisions are being
made, and it is new to me; I haven't really heard about that.
Could you share with us--does that happen on a regular basis?
Is this how projects move forward and is it a stakeholder
meeting, public, private, open, closed? At what level does that
occur? Because that sounded like that is maybe where a decision
was made. Maybe give us a little insight into----
    General Bostick. No, there wasn't a group of folks that met
to make a decision one way or the other. The Corps process is
that once the district is prepared then they would bring the
report up to a Civil Works Review Board----
    Mr. Graves. Okay.
    General Bostick [continuing]. Which is chaired by John
Peabody and other teammates and then others, local
stakeholders, sometimes the Congressmen from the Hill will come
to those meetings and it is an open dialogue about the merits
of the project. And then we move from there to a Chief's Report
which I would sign and then send to Miss Darcy. This is a
little different, because we felt there was a need to get an
authorization so this is slightly different than that process.
But, there was no meeting where we sat around a table and
decided that we needed this authorization.
    Mr. Graves. But you reference that on the local level there
was a legal opinion that you could sign the PPA and then went
to another level where that same discussion took place and
there were some who felt similarly that legally, yes, you can
move forward and there were others for other reasons that felt
like it was outside of the scope, the scope had changed. Was
that one of the regular meetings you are discussing or is that
just something different?
    General Bostick. I probably should not have said meeting. I
am just saying that there was a letter that came out of OMB
that stated the reasons why we believe that this project needed
an authorization. I am presuming there was a meeting and a
discussion that I wasn't involved in and I am sure Miss Darcy
wasn't involved in where the Administration felt like, based on
the scope of the project, in order to meet what they felt the
intent of Congress was that it had to go through an
authorization.
    Mr. Graves. Okay. So it really wasn't a meeting that took
place that you were involved in?
    General Bostick. Right. It wasn't a meeting I was involved
in.
    Mr. Graves. But it sounds as if there was a meeting that
took place and I think Ranking Member Bishop referenced that as
well and based on some of your comments, someone somewhere just
felt like the scope had changed. But you weren't a part of
those discussions?
    General Bostick. At the staff level I think there is a lot
of discussion back and forth between my office, Miss Darcy's
and OMB. We're all working back and forth giving our thoughts,
our views on which way things can go.
    Mr. Graves. Did that happen--I mean did you get that
instruction after the Consolidated Appropriations Bill had
passed and been signed or before?
    Ms. Darcy. You mean the decision about how to budget for it
in 2015?
    Mr. Graves. Right, Yes.
    Ms. Darcy. Well, we formulate our 2015 budget in the fall
and give it to OMB and then there is what is called Passback
and renegotiate that and ultimately the decision for what is in
the President's budget is OMB's.
    Mr. Graves. The only reason I ask is going back to the
items here on the mug, we had a budget that the House and
Senate agreed to that addressed this issue, we had the omnibus
that addressed this issue, and I don't recall anyone
communicating with us saying ``the scope changed, you need to
address it differently than that.'' Was there ever any
communication to any members of the House or the Senate on
that?
    Ms. Darcy. Well, sir, this project is in both WRDA Bills
and we supported it being authorized in both WRDA Bills and
that's stated I think in our Statement of Administration Policy
on both of those Bills so that would indicate that we felt it
needed an authorization.
    Mr. Graves. Okay. And then I guess lastly we've sort of
established today, and General I thank you for your candid
remarks, that legally you have the authority to sign the PPA to
move forward. The question for you is, have you made the
decision not to sign it or have you been instructed not to sign
it?
    General Bostick. I wouldn't sign the PPA.
    Mr. Graves. Okay.
    General Bostick. The PPA would come up through my office,
then to Miss Darcy.
    Mr. Graves. So then I'll direct the question to you,
Secretary. So have you made the decision and chosen not to sign
it given that it's been established that you have the legal
authority to sign it or have you been instructed not to sign
it?
    Ms. Darcy. I cannot sign a PPA until the project is
authorized because a PPA indicates that construction funding
would be forthcoming.
    Mr. Graves. Thank you.
    Mr. Simpson. Which leads us back to the beginning. Thank
you all for being here today. There are four message takeaways
from this. We don't like the fact that there is a 17 percent
cut in the budget, take care of Asian Carp, nav waters and
Savannah Harbor, and you are set to go.
    Ms. Darcy. Okay. Easy.
    Mr. Simpson. I appreciate you all being here. I thank you
for the work that you do. We look forward to working with you
as we try to address not only these issues that have been
brought up here today but others as we move forward for the
important work that you do both for our country and for the
world actually. So thank you.


[GRAPHIC(S) NOT AVAILABLE In TIFF FORMAT]

                                         Wednesday, March 26, 2014.

              DEPARTMENT OF ENERGY--BUREAU OF RECLAMATION

                                WITNESS

LOWELL PIMLEY, ACTION COMMISSIONER OF RECLAMATION
    Mr. Simpson. I would like to call the hearing to order.
Good afternoon, everyone. We are about 15 minutes late because
of votes, but other members will be dragging in. And then, as I
have told everybody, there are a bunch of different hearings
that are going on, because we have a reduced hearing schedule,
and Chairman Calvert has to go to a defense hearing. So, I am
going to actually turn to him first after the opening
statements to ask him questions.
    Our hearing today is on the fiscal year 2015 budget request
for the Bureau of Reclamation. I would like to welcome our
witness, Lowell Pimley, Acting Commissioner of Reclamation. I
have every confidence that Mr. Pimley's many years of
experience with Reclamation will serve him well as he guides
the agency's activities during the transition to a new
Commissioner.
    Make no mistake, though--it is a challenging time for
Reclamation. We all know that our infrastructure is aging, some
of it getting quite old and beyond its design life, which means
increasing maintenance and rehabilitation needs.
    Funding necessary to meet our commitments under existing
Indian Water Rights Settlements will continue to increase, and
you might say it is in our best interests to hope for future
settlements requiring funding, as well, since the potential
alternatives could pose serious consequences.
    Funding levels devoted to large-scale ecosystem restoration
often associated with Endangered Species Act compliance also
seems to be increasingly significant. The current drought
across much of the West--but most severe in California--has put
even stronger pressure on the many challenges inherent in
trying to balance the water needs.
    It has also highlighted both the general and the great
importance of our economy, and the fundamental physical limits
of our water resources infrastructure.
    All of these important considerations, and yet
Reclamation's budget has remained relatively flat for a number
of years now. In fact, the fiscal year 2015 budget request
before us today is actually a six-percent reduction from fiscal
year 2014 enacted level, after accounting for the proposed
shift of the Central Utah Project.
    The agency continues to be expected to do more and more,
but without more funding. At some point, improving efficiency
just is not enough. It would seem we, the Executive Branch and
Legislative Branch together, have some tough decisions to make.
Either we reevaluate the number and breadth of the actions we
promised to deliver, or if these really are strong national
priorities compared to national priorities in other policy
areas, we figure out a way to better reflect that in
Reclamation's budget.
    I look forward to discussing Mr. Pimley's agency's view on
how best to meet these many challenges.
    Again, I would like to welcome our witnesses to the
Subcommittee. Mr. Pimley, please ensure that the hearing
record, questions for the record, and any supporting
information requested by the Subcommittee are delivered in
final form to us no later than four weeks from the time you
receive them. Members who have additional questions for the
record will have until close of business tomorrow to provide
them to the Subcommittee's office.
    With that, I will turn to Ms. Kaptur for opening comments.
    Ms. Kaptur. Thank you, Mr. Chairman. Commissioner Pimley,
welcome. Mr. Wolf, welcome today. This is your first hearing
before our Subcommittee, and we very much look forward to your
testimony. And we thank you both for the fine work you do for
our country.
    The Bureau of Reclamation is responsible for providing the
agriculture, municipal, and industrial water supply in a 17-
state region of the West. Economies, ecosystems, and
communities all rely on the availability of clean water--
something we cannot take for granted. And the existence of such
an instrumentality is of great value to our Western states and
to the nation. We would be a very different nation without you.
    You have created a resource that is now available to all
regions and a national benefit and endowment to one third of
our states. It is an investment by America,
intergenerationally, that simply cannot be taken for granted.
    At a time when water demand is increasing and many regions
have been hit by extended drought of historic proportion, the
Bureau's being asked more and more to provide solutions to the
West's water needs, all while being good stewards of our
natural resources.
    I hope to hear today how the Fiscal Year 2015 budget
request reflects this responsibility with a reduced budget.
    Reclamation's budget request for water and related
resources represents a six-percent reduction from that of 2014.
And while we are all interested in finding appropriate places
to cut, I do have some concerns that this reduced request
continues the disinvestment in our nation's water resource
infrastructure.
    Therefore, it will be especially important that our
Subcommittee understand the specific methodology used to arrive
at this particular set of projects and activities.
    Additionally, much of the Bureau's infrastructure was built
nearly a century ago. In fact, over half of the Bureau's dams
are more than 60 years old. It is critical that Reclamation
maintain this aging infrastructure.
    Let us explore today how the budget request provides
funding levels that meet the Bureau's responsibility to keep
Americans safe while maintaining its dams in proper working
order.
    Reclamation plays a vital role in delivering water to
tribes in rural communities that would not otherwise have
access to clean water.
    I do appreciate that the administration's budget request
continues to meet the nation's obligation under the Indian
water rights settlements. We are all interested in ensuring
that every dollar is spent effectively and efficiently, and I
look forward to your testimony today on how Reclamation plans
to accomplish your task.
    I want to thank you personally, Bureau of Reclamation, for
your efforts and attention to briefing me on many installations
across our nation, and serving our nation so ably for over a
century. Truly, you have made life in our desert West possible.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Mr. Simpson. Thank you. Mr. Pimley, I look forward to your
testimony.
    Mr. Pimley. Thank you, Mr. Chairman, Ranking Member Kaptur,
and Members of the Subcommittee, for the opportunity to discuss
the President's Fiscal Year 2015 budget for the Bureau of
Reclamation. The budget reflects a comprehensive set of actions
and initiatives supporting administration, Department of
Interior priorities, and Reclamation's water and power mission.
    The overall request for Reclamation is about $1 billion,
and I have submitted detailed written testimony for the record.
The 2015 budget request prioritizes the use of resources in six
areas, and I will discuss those with the remainder of my time.
    First, Reclamation's budget focuses on resources necessary
to operate and maintain its infrastructure. In 2015, 55 percent
of all water and related resources account--or about $417
million is dedicated to the operation's maintenance and
rehabilitation activities.
    The Dam Safety Program remains one of Reclamation's top
priorities, and it is proposed for $83 million. Other OM&R
activities include the Site Security Program, at $26 million,
and our Replacements, Additions, and Extraordinary Maintenance
Program, funded at $63 million.
    The second priority area is WaterSMART. WaterSMART
concentrates on expanding and stretching limited water supplies
with an established priority goal to facilitate an increase in
available water supply of 840,000-acre feet, cumulative, by the
end of 2015.
    From 2010 to 2013, Reclamation has helped free up an
additional 734,000-acre feet of water supply in the West, as
well as conserving approximately 45 million kilowatt hours of
electricity.
    In 2015, Reclamation proposes to fund WaterSMART at $52.1
million.
    The third priority area is to support the Department's
Powering Our Future Initiative. We are taking advantage of the
hydropower legislation passed last year to help develop more
power across the West.
    The 2015 budget also allocates $1.2 million to optimize its
hydropower projects to produce more clean, renewable energy
with the same amount of water, investigate Reclamation's
capability to help integrate non-hydro renewable energy sources
into the nation's electric power grid, and work with tribes to
assist them in developing renewable energy sources.
    Strengthening Tribal Nations is a fourth priority area. The
2015 budget supports the strengthening tribal nations
initiatives through a $90-million request for planning and
construction of five recently-enacted Indian Water Rights
Settlements in a new separate account.
    The budget also includes $8.1 million in support of
Reclamation's activities with tribes and $14.1 million to
continue operation and maintenance associated with water
delivered to the Ak Chin Indian community in Arizona.
    The fifth priority is Ecosystem Restoration. In order to
meet Reclamation's mission goals of managing water and energy
resources in a sustainable manner for the 21st century, one
focus of its programs must be the protection and restoration of
the aquatic and repairing environments influenced by its
operations.
    Ecosystem restoration involves a number of activities,
including Reclamation's Endangered Species Act recovery
programs. Examples include the Platte River Recovery
Implementation in Wyoming, Colorado, and Nebraska, and river
restorations on the Trinity River in Northern California and
the Columbia Snake River salmon recovery in Idaho, Washington,
and Oregon, which collectively are funded at $44 million in FY
2015.
    The sixth priority is Climate Change Adaption. Reclamation
is actively engaged in developing and implementing approaches
to understand and effectively adapt to the risks and impacts of
a changing environment on Western water management.
    For example, our Basin Study Program, as part of our
WaterSMART Initiative, is funded at $3.9 million, and
represents a coordinated approach to assess these risks and
work with our stakeholders to develop adaptation strategies to
cope with future water supply demand in balances.
    In conclusion, Reclamation is very aware of the role our
projects play in helping Western states suffer through the
drought. We understand the value of adding new water supplies
through a variety of methods including surface storage in
appropriate situations, and we continue to work with our
customers to assess their needs.
    Mr. Chairman, we appreciate the continued support of this
Subcommittee for Reclamation.
    And this completes my statement. I would be glad to answer
questions at the appropriate time.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Simpson. Thank you. I appreciate your statement.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. And thank you both
for your attendance today.
    I am glad, Mr. Pimley, toward the end of your testimony,
you brought up surface storage under appropriate circumstances.
I may get into that, but--your agency has a target of expanding
water supply--and in your testimony, by conserving 840,000-acre
feet of water by September 2015. What is your acre foot for new
water storage in that same time period?
    Mr. Pimley. As far as any new water storage that we are
bringing onboard, we have got some work in Wyoming on a dam
safety project, where we are actually raising the spillway
crest elevation. And that will recover about 53,000-acre feet
of storage that has been lost to sedimentation over the years.
It is not new storage, per se, but it allows us to store
additional----
    Mr. Calvert. Do you have a target for new water storage in
the next 10 years, as far as what we are going to do for new
water storage, surface storage?
    Mr. Pimley. So, we do not have a numerical target like we
have for the WaterSMART. What we do have is a series of
studies, I am sure you are aware, within California.
    Mr. Calvert. We are studying everything, but, as far as we
know, we have zero plans for surface storage at the Department
of Reclamation?
    Mr. Pimley. We will be bringing those studies to fruition
within the next 18 months on several projects in California, on
storage, that would potentially add up to--I am not sure all of
them will be done in the next 18 months, but add up to about
400,000-acre feet.
    Mr. Calvert. How many years have we been working on those
various studies in California?
    Mr. Pimley. Quite a few, granted--more than what we would
have expected.
    Mr. Calvert. I was Chairman of the Water and Power
Committee back when we passed the CALFED legislation 12 years
ago. And the studies began then, and they are still not
complete. How many more years do you think is left?
    Mr. Pimley. Right now, our target is to finish the Shasta
study at the end of this calendar year. And then I believe the
Temperance Flat is in 2015, and the San Luis Reservoir shortly
thereafter. That would be completing our feasibility studies
and our environmental impact statements.
    Mr. Calvert. So, we are saying to do these studies on new
storage nowadays is 12 to 15 years. Is that pretty much what
you are saying on these projects?
    Mr. Pimley. I cannot argue that that is what it is taken on
these projects.
    Mr. Calvert. And the next step is to design the projects,
and to build them. So, see what kind of progress we make.
    The general statement of Reclamation's budget request for
this year mentions the term ``climate change'' numerous times,
but only mentions the term ``storage'' one time. If Reclamation
is truly concerned about changing climate and drought, why is
not a larger emphasis put on expanding water supply through
storage to prepare for drought?
    Some studies indicate if, in fact, climate change is
occurring, that there will be less snowpack, and we have to
prepare ourselves by having more surface storage.
    Do you agree with that statement?
    Mr. Pimley. Depending on which basin we are talking about.
We are trying to do basin studies across the West, to do
precisely what you just mentioned--to look out 50 years, to see
what that is going to do to our system. We may not be able to
rely on storage in the form of snowpack. We may have to store
that earlier in the year, and have more severe inflows at
various times for flood control.
    So, it is certainly a tool in the toolbox, and I believe it
is more likely to be a viable alternative as we look down the
road. As someone said on the panel, there is a limit to how
much you can conserve. It is a good drought-proof way to free
up water supply through our WaterSMART conservation and the
reuse initiatives. But there is a limit to what you can do.
    So, with population----
    Mr. Calvert. Well, I would agree with that. I think there
is a common theme here--that we have been studying these
problems for some time. We knew that there was a need for
storage a long, long time ago. And we know that there is a need
for storage now. Shasta, Temperance Flat, Sites Reservoir, some
other opportunities out there in California.
    But I would like to, Mr. Chairman, add up how much money we
have spent on studies for the last number of years, and see if
it may equal what it would cost to actually build the storage--
and whether the basic design of the storage has actually
changed in any meaningful way, from the time we started to the
time we start moving on these projects.
    But it seems to me that by the time we get these things
done, there is not going to be any farmers left in the Central
Valley.
    With that, Mr. Chairman, thank you for letting me have my
time. Thank you.
    Mr. Simpson. Yeah, thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Pimley, as you know, I do not come from a Reclamation
state nor region, but I am very interested in the historical
funding for the Bureau of Reclamation, and very curious whether
your agency maintains an account of the net present value of
federally-supported capital infrastructure under the Bureau's
purview since inception.
    Do you go back to the early part of the 20th century and
actually calculate what the full value of that investment is?
    Mr. Pimley. I have seen the number. I will be honest with
you: I do not know it off the top of my head, but, yes, we can
provide that for the record.
    Ms. Kaptur. Can you provide that for the record?
    Mr. Pimley. Yes.
    Ms. Kaptur. If you were--did you recall any number?
    Mr. Pimley. I would not want to speculate.
    Ms. Kaptur. All right. As I understand it, the 1902
Reclamation Act required the full repayment of irrigation
project costs by beneficiaries. Initial funding for reclamation
projects was to come from the sale of federal land in Western
states, and as projects were completed and revenues were raised
from water users, the government could then fund new projects.
    Can you take a few minutes to explain how the repayment
agreements work? Who pays, over what time, and is interest
applied to the principal or not?
    Also, I see in your budget request, there is a recision of
$500,000 from a loan program which has not been funded in a
decade or so. Do you have any active loan programs that have
either received funding in the past or are funded by anything
other than direct appropriation?
    So, first, could you take a few moments to explain how the
repayment agreements work----
    Mr. Pimley. Sure.
    Ms. Kaptur. Who pays them, over what time, and is interest
applied to the principal or not?
    Mr. Pimley. I will try to remember all of those, and I will
start with the last one first, which is the interest issue.
Typically, we do collect interest on municipal and industrial
repayment, but not on agricultural water users.
    And then the traditional repayment period has been 40
years. So, over a 40-year period, the concept is, the project
is paid back into the Reclamation Fund, to recover the initial
capital investment.
    Now there are multipurpose projects, where--let us say that
we have irrigation, flood control, power, and, say,
environmental or public benefit. When we have multipurpose
projects like that, we assign the responsibility to repay
various percentages of the initial capital investment to those
different beneficiaries.
    So, if it is, for instance, a public benefit--flood control
or, say, environmental mitigation--those would be considered
non-reimbursable, and would not be repaid back to the Federal
Treasury or to the Reclamation Fund.
    But all the other uses--the consumptive uses for M&I and
agriculture--would, within the confines of the interest
arrangement that I mentioned earlier.
    Ms. Kaptur. Right, but you are saying an agricultural
interest would not pay interest over time, compared to your
commercial and municipal users.
    Mr. Pimley. Correct; yes.
    Ms. Kaptur. That is correct. And so would that provide any
kind of financial benefit to an agricultural user, compared to
an agricultural operation in another part of the country?
    Mr. Pimley. I think there is a financial benefit to having
an interest-free loan. In that sense, yes.
    Ms. Kaptur. Okay. And that loan is for the water?
    Mr. Pimley. To recover the capital costs of the initial
project.
    Ms. Kaptur. Water project?
    Mr. Pimley. Yes.
    Ms. Kaptur. Of the initial water project--okay. And as I
understand it, the vast majority of the water you supply is to
agricultural use.
    Mr. Pimley. Yes.
    Ms. Kaptur. Yes. So, that is an inherent subsidy. And it is
of interest to me because when I look at the climate change
maps and so forth--and speaking with representatives from
California--the availability of fresh water is becoming more
dear. And as you look at the changing nature of the West, one
Senator has said to me California's becoming a desert. I do not
know if others would say that.
    But how do you describe what is happening in the 17 Western
state area? You really are a very experienced American at what
you do. There are very few people that have had your
experience. How would you describe to the American people what
is happening in the states under your purview?
    Mr. Pimley. We are in the middle of a long-term drought in
much of the 17 Western states, particularly on the Colorado
River. That has been going on since 2001. It has been the
driest 14 years on record. We started that timeframe with our
reservoirs completely full. We have about four years of storage
on the Colorado system.
    We started in 2001 with those reservoirs full, and in the
last 14 years, we have been able to deliver project benefits,
but we have drawn those reservoirs down to a little bit under
50-percent capacity.
    Ms. Kaptur. Has that ever happened before?
    Mr. Pimley. I could not tell you, but I would be surprised
if it did. We have never experienced this sort of extended
drought within the Colorado Basin.
    Mr. Calvert mentioned that California has been experiencing
extreme drought this year. The last time we had a water year
close to this was 1977. And the difference then was, we
actually started the year off with pretty decent storage in our
facilities. We did not start the year off this year with much
storage. So, it is a very dire situation.
    The Rio Grande Basin, the Pecos Basin in New Mexico is
extremely dry. We have pockets of dry areas of Eastern Oregon.
But for the most part, the drought has been more towards the
Southern portion of the area. It is a very significant
situation, and we are paying a lot of attention to it.
    Ms. Kaptur. Tell me this: As you look to the future, since
the majority of water users are agricultural--or at least the
majority of draw is agricultural--are you or is someone from
USDA able to provide for the record the types of crops, and the
acreage devoted to certain crops, and the water drawn?
    And I am sure our Western Members are very familiar with
this, but the majority of Members here would not be. And I
think it would be very interesting to look at what is being
farmed with very dear water. And that is not D-E-E-R; that is
D-E-A-R--very dear water.
    And to take a look at that crop mix and that product mix--
are you able to do that, systemwide?
    Mr. Pimley. I do not know that Reclamation has that data.
We typically are in the business of delivering water to the
farm, and then the Department of Agriculture, National Resource
Conservation Service, and others really have the on-farm
efficiencies.
    So, we can provide for the record information on how much
water we deliver to the various recipients of our water, but as
far as the exact utilization of that water, what crops are
grown--if we have it, we will provide it. I honestly do not
know that we do.
    Ms. Kaptur. All right. I see that you have announced last
month a $14 million partnership with U.S. Department of
Agriculture Natural Resource Conservation Service. And perhaps
as a part of that, you could provide the information I am
requesting.
    Apparently, you and the NRCS are going to select and fund
certain water conservation and water management projects or
programs. So, would not this be a natural area in which to kind
of assemble that data, and make it available so we could make
intelligent choices as a country?
    Mr. Pimley. I believe that particular joint effort is
focused in California, because of the drought.
    Ms. Kaptur. Oh, it is just California--oh.
    Mr. Pimley. But, like I say, we can work with the
information that we have, and we can certainly pass along your
request to NRCS.
    Ms. Kaptur. All right. I thank you very much.
    I will have a second round, Mr. Chairman, but I will give
the other Members a chance.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Gentlemen, it is
good to see you all today.
    Dam safety and the condition of our water infrastructure is
an important issue--and one that was a key topic earlier today.
Many of the Bureau of Reclamation dams are over 60 years old.
And between wear and tear, seismic issues, hydrologic concerns,
dam safety is a challenge that needs to be addressed. I have a
few questions, Mr. Commissioner, in regard to that.
    How often do you perform risk assessment of dams?
    Mr. Pimley. We have a systematic process by which about
every eight years, we go through our entire inventory of dams.
So, on an eight-year cycle, we do what we call a comprehensive
facility review, with an issue evaluation on any issues that we
have uncovered.
    In between those eight-year cycles, we have what we call
periodic facilities reviews, where we go and look for precisely
what you mentioned. If there has been any significant change,
that raises a concern, we can move that to the front of the
line.
    Mr. Fleischmann. Okay. You may have answered, then, with
your answer, but just to be specific, how does the Bureau
prioritize future safety and security work on the dams?
    Mr. Pimley. Once we go through that process, we do a risk
analysis where we look at the probability of failure of the
facility, for whatever cause, and put that in terms of the
annualized probability of failure. We overlay that with the
consequences of a failure, as far as population at risk and
potential risk to the public.
    When we have that, we break that down into, in essence,
what level of risk the dam poses with this particular loading
condition or, perhaps, weakness. And then we prioritize all of
our dam safety projects based on that criteria.
    Mr. Fleischmann. Okay, sir. What is your plan, then, to
deal with the increasing amount of dams that will require
infrastructure, maintenance, and safety activities in the
coming years, sir?
    Mr. Pimley. Much of the activity--well, let me back up. The
Dam Safety Program is specifically aimed at ensuring that the
facilities either--if they are subjected to new loading
conditions, perhaps the new hydrological loadings that are
coming in--have different weather patterns or advances in the
state of the art with an understanding of seismic loadings--
that is what the Dam Safety Program is focused on.
    We have an operation maintenance and rehabilitation
program, where, if we have wear and tear on the facilities,
that is funded in another manner.
    But they are both funded in this broad category, what we
call operation, maintenance, and rehabilitation. It is just
that the legislative authority for dam safety is a little more
narrowly defined.
    Mr. Fleischmann. Is there currently a maintenance backlog?
And if so, how large is that, sir?
    Mr. Pimley. Part of the process I mentioned that does the
evaluation of our dam safety assessments--those comprehensive
facility reviews--we have similar evaluations on a periodic
basis, as part of our asset management program, that look more
at those maintenance issues.
    And as we do that, we develop a list of current and
projected needs on a periodic basis. That information is then
rolled into a larger program that we look at. It is part of our
asset management.
    The last time we did a five-year projection, that was
projected out at the potential needs of about $2.6 billion over
those five years. It is not necessarily a backlog; it is a look
forward as to what we need to be prepared for.
    It is a little complicated with Reclamation, because half
of those facilities, roughly, are transferred works, where we
have transferred the operation and maintenance to our operating
partner. The other half, we have got reserved works. So, the
obligation for those investments is shared between the federal
government and our operating partner.
    So, we work very closely with them to work out our plan on
how we can get that funded.
    And, candidly, we are relooking at that this year, because
we do have some inconsistencies on how the data is reported
across the five regions, and we are trying to make that more
uniform, working with our operating partners to make a more
transparent process so that we can do a better job
demonstrating it is an apples-to-apples comparison.
    Mr. Wolf. I would just add--one point is that not all of
that dollar number of $2.6 billion is subject to annual
appropriations. So, we have facilities like hydropower
facilities that are financed directly by the power customers.
And that is a significant part of that.
    Mr. Pimley. Point taken. Roughly, a little bit more than
half of that $2.6 billion I mentioned would be a federal
obligation. We think a little bit less than half of that would
be funded by others, as Mr. Wolf just mentioned.
    Mr. Fleischmann. Chairman, how is my time?
    Mr. Simpson. Go ahead if you have another question.
    Mr. Fleischmann. Yes, thank you.
    Gentlemen, as you know, this Committee deals very heavily
with the Department of Energy--works very closely with the
Department. The Department of Energy has done considerable
research on hydropower. I am curious to know whether or not the
Bureau of Reclamation has collaborated at all with DOE. How are
you coordinating with DOE, and what do you view as the proper
role of the Bureau, vis-a-vis DOE?
    Mr. Pimley. We work very closely with DOE. We have had a
memorandum of understanding for a number of years with them,
under which we cooperate on exactly as you described--research
into hydroelectric efficiencies, new programs. We work with the
power marketing administrations: WAPA, and Southwest, and
Bonneville Power Administration. WAPA transmits the bulk of our
power. BPA transmits the power that we generate in the
Northwest.
    And as their affiliation with DOE, they are basically the
recipients of the power that we produce.
    So, the funding that Mr. Wolf mentioned, much of that comes
from those organizations as they then turn and sell the power
to others. So, we have a very close relationship with DOE.
    Mr. Fleischmann. Thank you. Chairman, I yield back.
    Mr. Simpson. Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Mr. Pimley, your budget narrative seems to place a pretty
heavy emphasis on climate change issues. Can you tell me how
much funding in your FY 2015 is directly related to climate
change issues?
    Mr. Pimley. We have about $10 million in our budget
specifically for what we call cooperative landscape
conservation, which has a number of activities within it.
    We have also added a couple of new programs this year--
about $1.5 million for what is called a drought program while
we are going to set up some competitive grants for people that
can come and take some actions to provide infrastructure
upgrades that are drought-resistant. And we also have another
$1.5 million for resilient infrastructure to do pretty much the
same thing--to try to integrate some climate change issues into
decisions we make--just mentioning as far as our maintenance
backlog or maintenance projection.
    We view the WaterSMART grants and the Title XVI activities
that we do--which is in the neighborhood of $40 million or $50
million--in that range somewhere--as a methodology that we use
to adapt or work on potential climate change.
    And I mentioned the basin studies. That is about $4 million
that we invest in those to try to look out into the future.
    Mr. Nunnelee. So, having spread the money over several
different programs, what steps are you taking to make sure that
they are not redundant or overlap with each other?
    Mr. Pimley. Within Reclamation, one of our offices in
Denver is really responsible for coordinating precisely what
you said--that those programs are complementing one another, as
opposed to duplicating one another. So, it is pretty well
centrally managed out of our Denver office, and that is our
primary way of ensuring that we are being as efficient as we
can with that funding.
    Mr. Nunnelee. All right. And then the opposite side of the
same coin: How are you confident that it is not so spread out
that it is ineffective at accomplishing any of your goals?
    Mr. Pimley. I would say, again, we keep an eye on it very
closely. A lot of those programs I mentioned--the WaterSMART,
the Title XVI, the new efforts that we are having, as far as
the basin studies--we really try to get fund matching from
outside entities, and set things up as a competitive approach
so that each proposal has to actually win on its merits to
achieve the funding.
    So, it does tend to give us a lot of bang for the buck.
    Mr. Nunnelee. Okay. If you would, just provide for the
record a list of each funding line item and associated funding
levels for Reclamation's climate change-rated activities for FY
2015.
    Mr. Pimley. Certainly.
    Mr. Nunnelee. You also include $1.2 million for energy-
related activities, including allowing Reclamation to
investigate their capability to help integrate large amounts of
different renewable resources, such as wind and solar, into the
electric grid.
    What does that mean?
    Mr. Pimley. Well, the $1.2 million, that is not a great
deal of money, but we have----
    Mr. Nunnelee. In Mississippi, $1.2 million is still a lot
of money.
    Mr. Pimley. It is in Montana, as well--where I grew up,
sir. What we use that money for, largely, is to fund our
activities out of another one of our Denver offices, our power
resource office. And that money is used to work with DOE, as I
was mentioning earlier, to figure out if there is a way for
Reclamation to help DOE and the power marketing administration,
to integrate the non-hydro renewable into the grid--pump
generation stations, those types of concepts, if that is
feasible.
    We have recently gone through and done--I believe it is
published at this point; I would have to check for sure. But we
have done an inventory of our facilities to see if there are
opportunities for that type of installation.
    We also have been very much focused on improving the
efficiency of our operations for hydropower generation--whether
that is through rewinds of generators or turbine-runner
replacements--that allow us to operate over a wider range of
reservoir levels, in order to get ready if we are going to have
extended periods of drought, if the reservoirs are going to be
drawn down more than originally envisioned, when they were
originally built.
    We have also initiated what we call a hydropower
optimization program, where each facility will have software
installed, which will optimize--well, typically, the order
comes in for how many megawatts of energy is needed. And there
is a blend of units within each facility that operate slightly
differently--some of them sized differently.
    But what this system allows us to do is to optimize the mix
of those units, to get the most power out of the least water.
    So, there are a lot of activities going on for--even though
a lot of money in Mississippi and Montana--$1.2 million. But,
again, that is a lot of bang for the buck.
    The last item that I mentioned, the optimization, we
roughly figure that is about a 40:1 benefit/cost ratio for that
investment. So, we are putting money into that as quickly as we
can, candidly.
    Mr. Nunnelee. All right--if you would just provide for the
record your statutory authority for undertaking that activity.
    Mr. Pimley. Okay.
    Mr. Nunnelee. Thank you, Mr. Chairman. I yield back.
    Mr. Simpson. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. And Mr. Pimley, good
to see you.
    Mr. Pimley. Yes, sir.
    Mr. Graves. I was going to follow on that same line of
questioning. If I recall, the Chairman discussed how stretched
your budget is in these difficult times, and we have had a lot
of other hearings in which budget requests are challenging. And
$1.2 million can make a difference.
    I think Mr. Nunnelee is right on target for asking, how
does this fit into your scope of responsibility as an agency?
And is it taking away from your core mission--and some other
areas maybe where your focus should be? For instance, the other
item I'll mention is the America's Great Outdoors Program,
which is $116 million. So, that is quite a bit beyond wind and
solar adding back to the grid.
    How do you justify those expenditures in these difficult
days where budgets are stretched, and debt is so high?
    Mr. Pimley. I will start with the hydropower activity. Like
I said, from our perspective, that is a relatively modest
investment for a lot of return on that investment, with regard
to the optimization. And, frankly, as far as integrating the
non-hydro renewables, it is an issue that the DOE, and
Bonneville Power, in the Northwest has a real issue trying to
integrate those.
    And if we can play a role in that, we view that as in-line
with our mission of delivering water and power for the Western
part of the United States.
    As far as the America's Great Outdoors, I believe you
mentioned the river restoration----
    Mr. Graves. But your statement says it is to add back to
the grid, right?
    Mr. Pimley. I am sorry--to integrate those non-hydro
renewables into the grid.
    Mr. Graves. Yeah, wind and solar into the electric grid--or
were you sharing with Mr. Nunnelee that the purpose would be to
assist with the hydropower that you mentioned, in generators or
turbines and such. Are those----
    Mr. Pimley. Okay, I am sorry.
    Mr. Graves [continuing]. Two different things?
    Mr. Pimley. Yes, I am sorry; very different. Yes, the
improved efficiency is, every time we take--I mean, they are
rotating units. They wear out at some point. Every time we take
those out for routine maintenance, we are looking at
opportunities to increase efficiency with either new designs of
turbine runners or new technology with regard to generator
windings.
    So, that is more of our nuts-and-bolts sort of activity
that we have been doing forever. We are just really focusing
now on the efficiencies.
    The integration of non-hydro renewables is more an issue
of, if we have any opportunities to have facilities that could
be constructed, or utilized, or re-tasked slightly to allow, in
essence, a pump-generation configuration which would use
electricity from other sources to lift water into a reservoir.
And then when that power is either not available or the demand
is higher, then to run turbines to generate power.
    Mr. Graves. So, to create, in essence, reserve power.
    Mr. Pimley. Correct; yes.
    Mr. Graves. Okay, thank you. Mr Chairman? And a long way to
that answer.
    Mr. Simpson. Thank you. Appreciate your testimony;
appreciate you being here.
    Do you find--this is just off-the-cuff--do you find it
strange, maybe even a little bizarre, that--you have mentioned
non-hydro renewable energy, but Congress does not recognize
hydropower as renewable energy?
    Mr. Pimley. I honestly do not know if Congress does or does
not recognize it. I know the Department of Energy recognizes it
as such.
    Mr. Simpson. When you have got a renewable energy
standard--if you are a power company out here, and you have a
renewable energy standard that you have to meet--if you were a
company that, say, 20 years ago, had 100 percent of your power
produced by hydropower, you have got zero percent renewable
energy. I just find that really bizarre.
    But if I go in, and I improve the efficiency of a dam and
the hydropower generation, I get credit for the increased
efficiency as being a renewable energy. This is really strange,
but this is what Congress has done--not you guys. I just find
it kind of strange.
    Nevertheless, as I mentioned in my opening statement, we
seem to be making commitments with significant costs, even as
Reclamation's budget has remained basically flat--and, as I
said, is down, six percent this year?
    What kind of comprehensive analysis of out-year needs has
Reclamation conducted? Have you at least completed a five-year
plan, like the Committee has repeatedly directed the Department
to do?
    Mr. Pimley. Each of our individual projects that we put
together definitely has plans out into the future, perhaps
further than five years. I cannot testify to exactly what those
are. But we try to capture that in our budget documents by
demonstrating what we have spent, what our proposal is for the
upcoming budget year, and then what is left in the program.
That is in a very succinct way to demonstrate that this is
basically where we are in the process, in the continuum of
completing those activities.
    A lot of our activities, with regard to the Indian water
rights settlements that we have got coming online--each of
those has a very succinct timeline. I mentioned, I believe,
that we have pulled that funding into a separate account, out
of our water-related resources into a separate account--this
year, I believe for the first time, for Indian water rights
settlements. And that is about $90 million this year.
    So, each of those has their own timeline. And so I would
say that what we do is, we do it more in a program-by-program
basis and a project-by-project basis, and then use that plan to
build our annual budget request.
    Mr. Simpson. So, if I were to ask--and I would be able to
ask this of probably any business in this country--give me your
five-year plan. What do you expect to do over the next five
years? What is it going to cost? If X number of dollars are
available, or this level of funding, or this level of funding,
or this level of funding--so its Committee would have some idea
of, okay, what path are we on?
    The Department would not be able to give me that? What do
you hope to accomplish over the next five years? I mean, that
is what most businesses operate on, is a five-year plan, so
that they know where they are going for the future. And, of
course, there are variabilities in that, depending on their
income.
    Mr. Pimley. Right.
    Mr. Simpson. And I would hope that the Department's in on
this--we have really asked all departments--the Department of
Energy and others--to do five-year planning, which was never
really done before. I guess Congressman Hobson was the first
one, if I remember correctly, that started asking for five-year
plans.
    And, actually, after you went through the process of doing
it, most agencies found it was actually kind of beneficial--
which is why businesses do it.
    Mr. Pimley. Yes. And we definitely have plans. Like I say,
our agency is structured on a project basis. So, it is more
natural at that level for us to build each of those.
    But as far as the overall blend of all those--and then add
all of them rolled up into a five-year plan for the entire
agency--we have not done that.
    Mr. Simpson. Well, I would advise you to do something like
that, because it would be helpful to this Committee--because
then we know--we are also looking at five years on, if we start
this project--because a lot of the projects that you guys do
are not one-year projects.
    Mr. Pimley. Correct.
    Mr. Simpson. They are multiyear projects. And a lot of the
different departments within this Subcommittee, the Energy and
Water Subcommittee, have multiyear projects. It would help us a
lot if we could know or have some idea, when we approve to
start something, what the long-range plan of this is. Are we
approving something that is going to be in the next five years?
And how does that fit in with everything else that we are
approving?
    Because a lot of times, it is easy to start--in fact, that
is one of the problems, frankly, with--I do not mean this to
sound partisan--but with some of the stimulus funding we did,
several years ago--started things that cost us money in out-
years to complete when the stimulus funding is gone.
    That is just something that we need to know as a Committee,
as we are planning our budgets.
    Reclamation's budget justification states that the budget
allocates funding based on objective and performance-based
criteria, but it never details or even mentions what those
criteria are, or how they are weighed or used in developing the
budget request.
    Can you please provide some detail on the specific criteria
considered, and exactly how Reclamation uses them to prioritize
the many demands for funding? And to what extent does your
budget request take into consideration the economic impacts of
the activities to be funded?
    Mr. Pimley. I think, as I mentioned, Reclamation tends to
build our budget from the ground-up. We assemble a team, which
is, in fact, underway at this point for our Fiscal Year 16
budget, to build those up from each region, and on a project-
by-project and program-by-program basis.
    So, each of those projects has its own unique authorizing
legislation which has slightly different requirements, as far
as duration and so forth.
    So, as we build those budgets, then what we do is, we look
at things such as our legal requirements or court-ordered
mandates. And we do not have a lot of choice on those. We look
at things like our public safety commitment. We prioritize
those requirements, as I mentioned earlier. And then we look at
our need to invest in a long-term infrastructure.
    So, those types of risk-based analyses, as far as the
consequences of not funding something, are just built into
every process that we do. Of course, the legal and the court-
ordered ones, we do not have as much flexibility there.
    But based on that, then we do build our budget up. And I do
not know that we specifically analyze the effect on the
economy--I think was what you were trying to get at.
    Mr. Simpson. Yep.
    Mr. Pimley. And I do know----
    Mr. Simpson. The economic impacts.
    Mr. Pimley. Economic impacts--we certainly have that on a
broader scale in Reclamations programs and projects, as Ms.
Kaptur asked earlier, that we can provide for the record.
    Mr. Simpson. Okay, I would appreciate that.
    When you talk about increasing storage, are you talking
about building new dams? Are you talking about increasing the
height of current dams--or both?
    Mr. Pimley. Both.
    Mr. Simpson. Both?
    Mr. Pimley. Both, yes.
    Mr. Simpson. I know that the State of Idaho has proposed
and actually funded in their own committee that--and I suspect
they work with BOR--looked at raising the height of some dams
in order for additional storage, because, you know, when you
are at the top of the dam level, increasing the height a few
feet, gets a lot more storage than if you are starting,
obviously.
    But I do not see us, frankly, building an awful lot of new
dams in the West for increased storage. There might be some in
some places, but trying to get them built today, with all of
the environmental requirements and other things, is almost
impossible, compared to what it was years and years ago, when
the heyday of the Army Corps and the BOR used to fight each
other for who was going to build which dam and so forth.
    And that makes it very challenging. That is why they are
looking at additional storage, and that always creates
questions of dam safety and a few others, as you do that.
    But increasing storage is going to be, I think, vital in
trying to address some of these long-term droughts in the West.
    In that regard, to some degree, the Ririe Reservoir in
Bonneville County, in Idaho, is a Bureau of Reclamation
reservoir, with flood control authority administered by the
Army Corps of Engineers.
    The water users there are very interested in the
possibility of additional water being carried over from one
water year to the next, which would require change in the flood
control rule curve.
    I understand Reclamation and the Corps have been working
together on this issue. Can you please describe Reclamation's
involvement to-date and the expected schedule for any
continuing or future activities?
    Mr. Pimley. We have been working with the local
stakeholders and with Corps. Obviously, the Corps's mission
here is flood control. Their focus is not to raise the risk of
floods.
    My understanding is that we are making progress on that.
And, in fact, I believe, this spring, we have an environmental
impact statement that will be issued.
    Mr. Simpson. Okay. I know that their analysis, as you said,
looks at flood control. You look at the benefits of the
additional storage.
    Mr. Pimley. Yes.
    Mr. Simpson. And so, really, the difference between the
Army Corps and you--is that you are looking at two different
things. And the water users out there sometimes wonder why two
agencies of the federal government are coming up with two
different numbers. But they are actually looking at two
different things.
    Mr. Pimley. Yes.
    Mr. Simpson. And we need to work with the water users there
to make sure that they understand what is going on here between
the two federal agencies, and, hopefully, we will get
coordinated, and make sure we are working together on that.
    One other question: Some nonfederal interests have
described an inability to get project or program information
from Reclamation. This Subcommittee has also had challenges in
getting information necessary for proper oversight, such as
detailed funding history for the San Joaquin River Restoration
Program.
    It is not clear whether this is a problem for Reclamation
not wanting to provide the information, or a problem of
Reclamation not having adequate systems in place for tracking
project and program information.
    Can you please explain or describe how Reclamation keeps
track of project and program details, including funding
history? And is each regional office the only place this
information can be found? How does headquarters ensure the
regional offices are operating in a standard--or at least
consistent--manner in this regard?
    It is one of the problems that we have had in trying to
work with different interests on the San Joaquin River
Restoration Project who have different points of view. If you
are not working with the same information, and you cannot get
that information, it is hard to try to find a common solution.
    Mr. Pimley. Right. I will try to answer that in a couple
different parts.
    One of the questions you asked--does each region maintain
this information? That is typically how we are structured, is
from an area office, which there are several within each
region. They are tasked as the program or project office, so
they are responsible for administering the project or the
program.
    In this case, San Joaquin River Restoration--there is an
office in our Mid Pacific regional office. That is where the
focus is, the coordination is.
    I know that we have had issues with bringing that project
along on the pace that was originally envisioned, the river
restoration. My understanding is that this spring or summer,
there is going to be--I think it is this summer--our Project
Manager out there is working on an updated schedule and a
realistic funding stream requirement with the stakeholders that
are involved--those folks that you mentioned--and to try to get
us a more realistic look from the standpoint of what we can
accomplish when, and get the most bang for the buck.
    So, from that standpoint, that particular project--I
believe we are rolling up our sleeves with our stakeholders to
find a way to move that project forward quickly.
    Mr. Simpson. Okay. Well, I appreciate that. And remember,
information that we request is always valuable to us in
oversight, and being able to get that information, either from
the regional offices or from headquarters, is vitally important
to this Subcommittee. So, we appreciate that.
    Mr. Pimley. Okay.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Yes, thank you, Mr. Chairman.
    I continue to be inspired by the work of the Bureau, and
wanted to ask, do you think you are named properly?
``Reclamation'' is an interesting word. When the Bureau was
founded, what is it you were reclaiming?
    Mr. Pimley. The arid West. I actually came to work for the
Water and Power Resource Service. We were renamed, actually,
under the Carter Administration for a short period of time. So,
I did not start with the Bureau of Reclamation; I started with
Water and Power Resource Service.
    Ms. Kaptur. Water--see, that is--I am thinking to myself,
was it ever claimed? Why were we reclaiming? I was just
thinking about the thinking that went into--you hear me?
    Mr. Pimley. Yes. We were claiming it back.
    Ms. Kaptur. So, we were reclaiming it from the desert.
    Mr. Pimley. We were claiming it back.
    Ms. Kaptur. Oh, I see. All right.
    Mr. Pimley. Yes.
    Ms. Kaptur. I wanted to ask that question.
    Thinking back to the value of what the country has done
over a century, how one would calculate that in an intelligent
way--the present value of that.
    And then if you were McDonald's Corporation, you would look
back to the year of your founding. You would see what it was
you wanted to make--or build, in your case--and to borrow
against that hope.
    And then you would have a product line where you would earn
income, and you would pay off whatever you might have borrowed.
    I am very interested in that history of the Bureau.
    Mr. Pimley. Sure.
    Ms. Kaptur. And looking back over time, within each decade,
to power--was power there at the beginning? Did you have the
thought back in 1902 that, you know, you were going to have
Bonneville? You know, if you look back, at some point, the
power equation plugged in, and there was an investment made,
and there were loans made over a period of time. And there was
a way of repayment.
    I am very interested in looking at the financial history of
the Bureau. It is very instructive when you look back at what
was done. My heavens. Mike, I do not know where you would be
living right now. You might be east of the Mississippi.
    Mr. Simpson. Probably not in the West. Not in the West--
none of us would be there.
    Ms. Kaptur. And so, you know, we need to think about that.
The reason I am asking about the word is because in the part of
the country that I come from, we have a need for reclamation
right now--from Duluth all the way across--so Wisconsin, and
Michigan, Ohio, all the way out to Buffalo--huge swaths of land
that are now brown fields, one-third of the manufacturing jobs
gone; communities struggling to rebuild themselves and to
replace industry that is gone. Cities struggling to build water
systems, and the largest number of combined sewer overflows--if
you were to look at a map of the country, just tips to the
Midwest and Northeast heavily. The scales are very out of
balance.
    Communities cannot afford to do this. And so one of the
reasons I am asking you these questions relating to financing
over a period of time, and looking at the interest rates, and
the method of--granted, you created power systems that then
generated revenue. But I think it could be very instructive to
parts of America that are struggling with their futures.
    This morning, we had our full Committee Chairman in here,
Congressman Rogers. And Kentucky has real challenges--and
economic challenges. All of coal country has real challenges.
    And we have to find a mechanism to help these parts of
America. We are not just going to float them out to sea. We
have to find a mechanism--in my opinion, anyway; that is what I
am fighting for. But I believe that we need an umbrella for
development. And I think you have something to teach the
country. Back in 1900, we needed to do certain things in the
West. Now we might need to do something in coal country. We
need to do something in the Great Lakes region. I think you
have something to offer us here, beyond the mandate of your
agency.
    So, that is one of the reasons I am so interested in the
modeling, going back from an accounting side, Mr. Wolf--to kind
of step back, and look at the whole of it, and offer
suggestions for, structurally, how you have accomplished what
you have to-date.
    So, I wanted to just say that you have provided water to
agriculture. You have provided potable water to people. These
are not unlike what happens in other parts of the country. They
simply do not have the mechanism for financing. And maybe we
could learn something through what you have done.
    So, if there is any way in which you could better explain
to us how your financing worked over the years--how funds were
repaid to the Bureau, what terms they had for the loans, how
interest was applied or extended, just as you would do in
accounting every year as a business would--if you could do the
same for us, that would be, I think, extraordinarily valuable
to the country.
    I actually do not know if your Bureau has that kind of
information in a way that would be useful--if it is been
gathered in a way that is useful.
    Mr. Pimley. I honestly have not seen the information
myself. We will look to see what we could provide you for the
record that would be responsive. I do know that Secretary
Salazar asked for that same kind of fundamental benefit to the
nation for each of the organizations within the Department of
Interior. And Reclamation provided that four, five years ago. I
just do not recall what the numbers are.
    Ms. Kaptur. Okay. Mr. Wolf, I do not want you to retire
early, but, you know, do you think you have it? Does the data
exist in a way that is easily assembled?
    Mr. Wolf. Like Mr. Pimley, I am not certain. We have
extensive recorded history of the agency. We have actually
published several volumes that talk in very general terms about
the history and how the agency involved. And it includes things
such as how the capital was investment, and what the payment
requirements were.
    But when you get into specific numbers by project in
different eras, I would have to check further on that.
Certainly, the volumes would be quite extensive, but I am sure
we have some shorter versions of that that we could provide
that would be instructive.
    Ms. Kaptur. Would OMB be a better place to ask?
    Mr. Wolf. I think we would probably have the best data
within our agency, and we can check for that, and get back with
the Committee.
    Ms. Kaptur. Okay. Is it my understanding that, as different
projects--well, as the need for water was met, power facilities
were then built to produce the power, and then additional
income was derived from that?
    I mean, am I understanding correctly that, without the
power facilities, you would never have been able to pay off the
other investments in water? Is that correct?
    Mr. Pimley. It is a definite revenue stream--significant
revenue stream. Most of the projects--I mentioned earlier
different beneficiaries or project authorization. The nature of
each project is slightly different. So, some projects were
authorized for hydropower flood control and irrigation. Some of
our projects did not have power authorized.
    We have subsequently gone back in, under the Federal Energy
Regulatory Committee, and added those power facilities--or
others have, actually--at some of those dams that did not have
power authorized.
    A large percentage of our projects that involved a dam did,
in fact, have power as part of the authorization. And that was
considered as part of that repayment plan over those 40 years.
    Ms. Kaptur. All right. And, you know, as I think about some
of our mayors in my part of the country, there is no way they
are being given 40 years to pay anything back. In fact, some of
our matching requirements have caused huge increases in utility
bills, in a part of the country that, frankly, cannot afford it
right now.
    And so, you know, we look for a solution to spread out the
pain, to extend it longer, to do anything not to increase those
costs. So, I am very interested in seeing if your experience at
Reclamation can guide us in constructing some alternatives that
might work in other regions.
    So, I thank you for walking through this with us a little
bit today, and appreciate your testimony.
    And Mr. Chairman, I will yield back my remaining time.
    Mr. Simpson. Thank you. I appreciate your comments. If you
want kind of an interesting history--and you do not take
everything for granted that is in the book--in fact, he later
wrote another book where he kind of backtracked on some of his
comments--but Cadillac Desert was written, what, 20 years ago
probably.
    Ms. Kaptur. Mr. Chairman, he does not have an accounting
ledger in there.
    Mr. Simpson. Well, but he does talk about how some of this
stuff was created, and financed, and those types of things. And
I think what you are looking at is something that I have been
looking at for the last seven, eight years.
    The infrastructure in this country is--I would say besides
our debt and deficit, and trying to get that under control--the
infrastructure needs in this country are the biggest problems
that we face. And I am not just talking roads and bridges; I am
talking roads and bridges, water and sewer systems, electrical
grid, dams, harbors, inland waterways, all of those things are
a big problem, and how we are going to fund them.
    Yesterday, we had the Department of Energy in here talking
about how they are making cars more fuel-efficient with new
requirements and how more electric cars are going to get on the
road and so forth.
    I told them, ``Do not screw up my financing system for the
highways,'' because that is what is happening. My wife gets a
new car. She gives me her old one that got 18 miles to the
gallon. She buys a new Prius and gets 53 miles to the gallon.
She is paying 40 percent of the gas tax she used to pay driving
the same miles. And I am happy for her--or happy for me. But I
am happy for her.
    But how are we going to fund these roads and bridges? We
have a $700 billion backlog in water and sewer projects in this
country. If you added all the money that the federal government
puts in our Interior bill, we put in about $2, $2.5 billion
into the STAG grants--State and Travel Assistance Grants.
Matched by local communities--so what? Maybe $5, $6 billion a
year we spend on a $700 billion backlog? That means in 150
years, we can address the backlog that exists today.
    We have got a real problem and a real challenge. And I do
not mean to put words in Representative Kaptur's mouth; I think
what she is looking at, if there can be some examples on how we
did things in times gone by, maybe, with the Bureau of
Reclamation or other agencies--or if there are ideas out there
about how we can address the long-term financing of this
infrastructure, it is vitally important to the future of this
country.
    We are the beneficiaries of forefathers who thought ahead.
I always use the example--I know I do not look this old, but
when the interstate highway system was built right next to the
town I lived in--and went up to Idaho Falls, the bigger town, I
can remember taking my wife on a date and going to Idaho
Falls--the theater, 26 miles. I could drive back at night after
the movie and never pass another car on the interstate when it
was first opened.
    And your thought was, man, they overbuilt this baby. Had
they not thought ahead that far, it would be a total mess
today. We are the beneficiaries of our forefathers investing in
things for the future. We are not doing the same. And I think
that is what the gentle lady is saying.
    Ms. Kaptur. I am definitely saying that. And I think,
obviously, Americans have a great sense of fairness to all
regions of the country, and they want this country to grow, and
they want it to be prosperous. And they know that we are at a
speed bump right now. We have got some issues that we have to
deal with.
    Infrastructure, as the Chairman says, is absolutely
critical. And you have some really unique experience that goes
beyond your Bureau, that is really important to the country.
    One of the disadvantages in my part of the country, for
example--and, boy, am I going to get in trouble by saying
this--but in the way that we produce energy, it is quite
patchwork. It is probably not the most efficient system, but it
is the one we have.
    But it has a lot of unintended consequences because of the
piecemeal nature of it. You have a much different way, through
the Bureau, of delivering energy.
    And, you know, maybe our system is the most efficient. But
it was developed earlier. The grid is older. There are a lot of
issues in our region of the country.
    We had a brownout a few years ago. I never thought I would
see that. And it had to do with the way that the grid is built
and so forth.
    But I wanted to pivot to agriculture. So, it is not just
power, and it is not just water systems that are antiquated and
leaking in every city, from Buffalo, to Cleveland, to Toledo,
to Detroit--I mean, Chicago--you name it. We have huge
infrastructure needs.
    But in agriculture, which is an arena that, in the state
that I represent, it is our lead industry. But over the years,
it has had the traditional row crop subsidies. But, for
instance, in the vegetable arena and fruits, where we get no
subsidies--I wish we had had some of the loan programs and
repayment terms so that our tomato industry, our strawberries,
our raspberries, a lot of our flower production and so forth,
our landscape production--that we could find ways to be more
competitive in today's marketplace, so that agriculture would
not be moving to other countries, would not be displacing U.S.-
based production.
    The key there for us is technology. And the kind of long-
term investment that the West, in its own way, has
experienced--and we need to learn from that. Maybe there are
mechanisms we could develop to restore some of the production,
and to add to what remains now, and create the kind of jobs for
the future, and income, and wealth creation that we really need
in our part of the country.
    I think, in some ways, you have plowed a path beyond even
what you realize you have done, with all the challenges you
face. I was thinking about, again, Chairman Rogers, because of
coal country, and with what is happening to EPA with the
closure of all these coal-fired utilities around the nation.
And our State of Ohio has as many closures as any other state--
probably more. And I am thinking, wow, what do we do? Just walk
away from those communities? We cannot do that. People do not
want to leave. They do not want to walk. They want to live
there, and they want us to help them transition.
    But we do not have a reclamation mechanism to do that, so
every community suffers alone. They do not build forward
together.
    And so I am looking for those mechanisms, and you provide
us a little bit of a window on a path forward.
    So, I thank the Chairman very much.
    Mr. Simpson. I thank you for being here today, and
listening to our dissertation on the problems that we are
trying to solve and the challenges that this country faces. We
look forward to working with you as we put this budget
together, and we will be seeking, as we do that, to get
information from you, and your agency.
    So, make sure you give us the information in a timely
fashion so that we can answer the challenges that we face.
    Thank you.
    Mr. Pimley. Okay, thank you.
    Mr. Simpson. Meeting is adjourned.
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           W I T N E S S E S

                              ----------
                                                                   Page
Bostick, General T. P............................................     1
Darcy, J. E......................................................     1
Pimley, Lowell...................................................   103

                                  <all>

</pre></body></html>
